<html>
<title> - [H.A.S.C. No. 112-24] DEVELOPMENTS IN AFGHANISTAN </title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 112-24] 

                      DEVELOPMENTS IN AFGHANISTAN 

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 16, 2011


                                     
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-591 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
























                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     KATHY CASTOR, Florida
BOBBY SCHILLING, Illinois            BETTY SUTTON, Ohio
JON RUNYAN, New Jersey               COLLEEN HANABUSA, Hawaii
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
               Benjamin Runkle, Professional Staff Member
                Michael Casey, Professional Staff Member
                    Lauren Hauhn, Research Assistant





















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, March 16, 2011, Developments in Afghanistan...........     1

Appendix:

Wednesday, March 16, 2011........................................    61
                              ----------                              

                       WEDNESDAY, MARCH 16, 2011
                      DEVELOPMENTS IN AFGHANISTAN
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Flournoy, Hon. Michele, Under Secretary of Defense for Policy, 
  U.S. Department of Defense.....................................     4
Petraeus, Gen. David H., USA, Commander, International Security 
  Assistance Force and U.S. Forces-Afghanistan...................     7

                                APPENDIX

Prepared Statements:

    Flournoy, Hon. Michele.......................................    69
    McKeon, Hon. Howard P. ``Buck''..............................    65
    Petraeus, Gen. David H.......................................    83
    Smith, Hon. Adam.............................................    67

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Conaway..................................................    99
    Mr. Cooper...................................................    99
    Ms. Pingree..................................................    99
    Mr. Rogers...................................................    99

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................   103
    Mr. Franks...................................................   106
    Mr. Johnson..................................................   106
    Mr. Miller...................................................   103
    Mr. Palazzo..................................................   111
    Mr. Ruppersberger............................................   105
    Ms. Sutton...................................................   110
    Mr. Turner...................................................   103
    Mr. Wittman..................................................   107
                      DEVELOPMENTS IN AFGHANISTAN

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 16, 2011.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Good morning. The House Armed Services 
Committee meets today to receive an update on security and 
stability in Afghanistan.
    During a visit last week with U.S. troops in Afghanistan, 
Secretary of Defense Robert Gates observed, ``The closer you 
get to this fight, the better it looks.''
    Having just returned from a fact-finding trip to 
Afghanistan a few week ago, I couldn't agree more. That is not 
too close.
    Our delegation met with senior military commanders and 
diplomats, talked to airmen at Bagram Air Base, Marines in 
Helmand province, and soldiers in Kandar, the birthplace of the 
Taliban movement that harbored Al Qaeda in the years prior to 
9/11.
    We spent time with Afghan leaders who are trying to build a 
better tomorrow for their people, and excited children who were 
able to attend school for the first time in their young lives.
    It was clear to our delegation that our forces have made 
significant gains in the past year and have reversed the 
Taliban's tactical momentum. Our forces, working alongside 
their Afghan partners, have cleared former enemy strongholds, 
swept up significant weapons caches that are vital for the 
insurgency, and given more Afghans the confidence to defy the 
Taliban.
    We have made considerable progress in growing and 
professionalizing Afghanistan's army and police, so these 
forces are more capable and reliable partners to our own 
troops.
    As significant as our troops' achievements in the fields 
are, they can easily be undone by poor decisions made here in 
Washington. Although the influx of additional troops and a 
better-resourced counterinsurgency strategy have led to 
operational gains, our witnesses today have the opportunity to 
lay out how this progress can be consolidated into a lasting 
strategic victory for the United States and its Afghan allies.
    In particular, the committee must understand what resources 
are required to reinforce the positive trends of 2010, so we 
can allow the Afghan government to assume the lead in 
governance and security.
    As Secretary Gates also said during his trip, ``There is 
too much talk about leaving and not enough talk about getting 
the job done right.''
    Among the key questions to be addressed are, what 
conditions would be sufficient to permit the redeployment of 
some U.S. forces beginning in July 2011? Thus far, the exact 
term of these conditions remain ambiguous. Unfortunately, what 
we hear informally from commanders on the ground is that the 
calendar is the only condition they have been given.
    Can any tactical and operational gains be permanently 
consolidated so long as the Taliban's leadership enjoys safe 
havens in Pakistan?
    Fortunately, our two witnesses, Under Secretary of Defense 
for Policy Michele Flournoy and Commander of the International 
Security Assistance Force and U.S. Forces-Afghanistan General 
David Petraeus are eminently qualified to address these issues.
    Our nation has asked military families to shoulder a 
tremendous burden. Just as we owe it to our nation's warriors 
and their loved ones to remain committed to the fight by 
properly resourcing the fight, we also owe it to them to get 
the war strategy right, for nothing would do more to honor 
their sacrifices than to achieve a strategic victory that makes 
all Americans more secure.
    Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 65.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    Thank you, General Petraeus, Under Secretary Flournoy. We 
appreciate you being here, and certainly we appreciate all of 
your leadership and work in Afghanistan.
    And I want to start by concurring with the Chairman's 
remarks about the progress that may have been made in 
Afghanistan in the last year to 18 months. It has been very 
real.
    I think I and virtually every member of this committee who 
has been to Afghanistan and seen that progress understands the 
territory that the Taliban controlled not long ago, they no 
longer control. They have been driven out because of the hard 
work of the men and women of our armed forces.
    And also at great personal sacrifice. We have lost a lot of 
lives and many, many wounded fighting that battle, and we need 
to honor that, respect that, and also understand the very real 
progress that they have made.
    And this makes a huge difference. Denying the Taliban safe 
haven undermines their ability to undermine the Afghan 
government and makes progress. And we should not fail to 
recognize the very, very real progress that is made.
    And I think we also need to be very clear that we have 
unquestionable national security interests in Afghanistan. I 
have heard some question those. You know, ``Why are we there?'' 
And I understand the frustration when you look at the cost and 
the loss of life.
    And I think we need to be 100 percent clear on why we are 
there. We are there because the Taliban and their Al Qaeda 
allies clearly threaten U.S. national security interests. This 
is where 9/11 was plotted. And if we don't have a secure Afghan 
government, there is no reason to believe that Al Qaeda and the 
Taliban will not return and once again have safe haven to plot 
attacks against us.
    We need a stable government in Afghanistan. We need a 
stable government in Pakistan. And right now, unquestionably, 
in both, in different ways, they need our help to get there.
    So those interests are clear, and I hope every member of 
this committee understands that.
    At the same time, the cost of this is very high, certainly 
in terms of lives and wounded; also in terms of dollars. But 
also it is not a sustainable long-term strategy for us to be in 
Afghanistan forever.
    That undermines our security interests by giving our 
enemies the ability to claim that we are occupiers that don't 
intend to leave. They have a long and painful history of being 
occupied in that part of the world, and they are very 
distrustful of outside forces.
    Which is why it is so important that we make it clear that 
we are there to help them stabilize their government and as 
soon as they do we will leave. And that needs to be our plan: 
to withdraw and draw down from Afghanistan as soon as we 
responsibly can.
    And the ``responsibly can'' part is the key part of that 
and what I look forward to hearing from your testimony, because 
what really concerns me at this point is the transition.
    As I said, the gains we have made are real. I have, you 
know, seen them myself. But how sustainable are they? We can't 
continue to spend the amount of money that we are now spending 
in Afghanistan and have the presence that we have there 
forever. So at what point can we begin to transition to Afghan 
control?
    And certainly security is a big part of that. I know we are 
doing a great deal of training of Afghan National Army, as well 
as police, and we are making progress on that front.
    My biggest concern, and what I hope you will address in 
your testimony, is the governance issue. That is where I have, 
you know, the greatest concern in terms of our ability to 
transition.
    The gains that we have made and the price that we have paid 
for those gains, will we be able to hold on to them as we begin 
the transition to a completely Afghan-run governance 
structure--rule of law, all of the basic elements of civil 
society? Can they do that in the district level, on the 
provincial level, in Kabul? Do they have the, you know, the 
ability to do that?
    And there are challenges, you know, given corruption and 
basic lack of confidence in--competence, sorry--in the 
governance in Afghanistan. I think that gives us pause.
    So we need the assurances that as we begin to transition 
out, you know, the gains that we have made and the price that 
we have paid for them will be sustained by an Afghan government 
structure that can stand without us.
    That is what I am really interested as we hear your 
testimony. And, again, we thank you for being here. And thank 
you for your leadership on this critical, critical issue.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 67.]
    The Chairman. Thank you.
    As I mentioned, we have our two witnesses today, the 
Honorable Michele Flournoy, Under Secretary of Defense for 
Policy, General David Petraeus, the Commander, International 
Security Assistance Force and U.S. Forces-Afghanistan.
    General, you have been called many times to very important 
assignments. We really appreciate what you are doing and the 
sacrifice you have made and your family has made and all of 
those sitting behind you in uniform and all of those men and 
women that you lead in the command area where you are serving. 
Thank you.
    Secretary Flournoy.

   STATEMENT OF HON. MICHELE A. FLOURNOY, UNDER SECRETARY OF 
                       DEFENSE FOR POLICY

    Secretary Flournoy. Thank you, Mr. Chairman, Representative 
Smith, distinguished members of the committee. I want to thank 
you for inviting us here to address such an important topic 
today.
    But before I offer my remarks on the current situation in 
Afghanistan, I would actually like to take a moment to echo and 
underscore the gracious remarks that General Petraeus made at 
the outset of his testimony yesterday regarding the devastating 
situation in Japan.
    As General Petraeus mentioned yesterday, Japan is a very 
close friend and steadfast ally of the United States. We are 
deeply concerned with what is going on there and are very much 
committed to providing whatever assistance we can to this great 
and resilient nation to deal with and recover from this 
terrible sequence of disasters.
    So our thoughts and prayers are very much with the people 
of Japan at this difficult time.
    Let me just take this opportunity to update you on how we 
see our efforts in Afghanistan.
    Nearly 10 years ago, Al Qaeda operatives carried out 
terrorist attacks that killed thousands of Americans and 
citizens from other countries. As we all know, these attacks 
emanated from a safe haven in Taliban-controlled Afghanistan.
    In response to the September 11 attacks, the United States, 
supported by a coalition of international partners, entered 
Afghanistan by force in order to remove the Taliban regime and 
prevent further attacks by Al Qaeda and its associates.
    Our mission was just. It was fully supported by the 
international community and initially it was quite successful.
    In the years that followed, however, we lost focus on 
Afghanistan. While our attention was elsewhere, Al Qaeda, the 
Taliban and associated extremist groups reconstituted their 
safe havens along the border lands between Afghanistan and 
Pakistan.
    As a result of this inattention, we risked the return of a 
Taliban-led Afghanistan that would likely once again provide a 
safe haven for terrorists who could plan and execute attacks 
against the United States.
    When President Obama took office, he immediately undertook 
a thorough review of our strategy in Afghanistan and Pakistan, 
and reaffirmed our core goal, and that is to disrupt, dismantle 
and eventually defeat Al Qaeda, and to prevent its return to 
Afghanistan.
    In the course of this review, we found that the situation 
in Afghanistan was actually much worse than we had thought, and 
that the Taliban had seized the momentum on the ground. In 
response, over the course of 2009, 2010, the President 
committed tens of thousands of additional U.S. forces to 
reverse that momentum.
    Last December, we conducted another review, a follow-on 
review of our strategy's implementation. In that review, we 
reaffirmed our core goal and the strategy's key elements: a 
military campaign designed to degrade the Taliban-led 
insurgency, a civilian campaign to build Afghanistan's capacity 
to secure and govern their country; and an increased diplomatic 
effort designed to bring a favorable and durable outcome to the 
conflict.
    Over the last year, we have made significant progress. With 
the troop surge, the U.S. and our ISAF [International Security 
Assistance Force] partners now have over 150,000 forces in 
Afghanistan, putting relentless pressure on the insurgents and 
securing more and more of the Afghan population.
    That surge has been matched by a surge in the numbers, 
quality and capability of the Afghan national security forces. 
During the past year, the ANSF [Afghan National Security 
Forces] have increased by more than 70,000 personnel and we 
have been able to improve their quality substantially by 
developing Afghan noncommissioned officers and trainers, 
expanding the training curriculum, adding literacy programs, 
increasing retention rates and partnering Afghan units side by 
side with ISAF forces.
    As General Petraeus will describe in some detail, U.S. and 
ISAF forces fighting side-by-side with an increasingly capable 
ANSF throughout Afghanistan have wrested the initiative from 
the insurgents, even in the strongholds of Kandahar and Helmand 
provinces.
    And we have turned up the pressure on Al Qaeda and 
affiliated groups in the border regions of Afghanistan and 
Pakistan, significantly degrading, though not yet defeating, 
their ability to plan and conduct operations against us.
    One key contributor to this positive momentum is the Afghan 
Local Police Initiative, a village-focused security program 
that has already significantly disrupted insurgent activity, 
denied insurgent influence in key areas and generated serious 
concern among the Taliban leadership.
    At the same time, we have ramped up our civilian efforts to 
improve Afghan governance and development. Today, thanks to the 
civilian surge, there are more than 1,100 civilians from 9 
different U.S. agencies helping to build Afghan governance and 
economic capacity, work that is absolutely vital to the 
ultimate success of our overall mission in Afghanistan.
    Nevertheless, the significant gains we have made in the 
last year are still reversible. There is tough fighting ahead 
and major challenges remain.
    Most notably, we must continue our efforts with Pakistan to 
eliminate terrorist and insurgent safe havens. We seek to build 
an effective partnership with Pakistan that advances both of 
our interests, including the denial of safe haven to all 
violent extremist organizations.
    To do so, we must demonstrate to our Pakistani partners 
that we will remain a strong supporter of their security and 
prosperity, both now and in the years to come, even as we ask 
them to do even more to defeat terrorism.
    In addition, we must work with the Afghan government to 
tackle corruption, especially the predatory corruption that 
erodes public trust and fuels the insurgency.
    And we must help create the conditions necessary to enable 
a political settlement among the Afghan people. This includes 
reconciling those insurgents who are willing to renounce Al 
Qaeda, forsake violence and adhere to the Afghan constitution.
    This July, we will begin a responsible, conditions-based 
drawdown of our surge forces in Afghanistan. We will also begin 
the process of transitioning provinces to Afghan lead for 
security. By the end of 2014, we expect that Afghans will be in 
the lead for security nationwide.
    This transition is a process, not an event. The process 
will unfold village by village, district by district, province 
by province. The determination of when transition will occur 
and where it will occur is going to be based on bottom-up 
assessments of local conditions.
    This process is beginning now, and in fact, we expect 
President Karzai to announce the first round of districts and 
provinces for transition on March 21st. As this transition 
process gets underway and as ANSF capabilities continue to 
develop, we and our ISAF partners will send out our forces, as 
conditions allow, and gradually shift to more and more of a 
mentoring relationship with the ANSF.
    Some of the ISAF forces that are moved out of a given area 
will be reinvested either in other geographic areas or in the 
training effort in order to further advance the transition 
process.
    The objective here is to ensure that any transition is 
irreversible. We have no intention of declaring premature 
transitions only to have to come back and finish the job later. 
We would much rather stick to a gradual approach, making sure 
that an area is truly ready for transition before thinning out 
ISAF forces there. This is the surest path to long-term and 
lasting success.
    But let me be absolutely clear, the transition that will 
take place between now and December 2014 in no way signals our 
abandonment of Afghanistan. President Karzai and President 
Obama have both agreed that the United States and Afghanistan 
will have an enduring strategic partnership that goes far 
beyond 2014. And we are currently working with the Afghans on 
the details of that partnership.
    Finally, I would like to acknowledge the very real costs of 
this war. Many of you have expressed concerns about these 
costs, especially in light of our battlefield casualties and 
our fiscal pressures here at home.
    But failing in this mission or walking away would have even 
greater costs. The Afghanistan-Pakistan border lands have 
served as a crucible for the most catastrophic terrorist 
actions of the past decade. The outcome we seek is the defeat 
of Al Qaeda and the denial of the region as a terrorist 
sanctuary.
    This objective is the reason why our brave servicemen and 
servicewomen have sacrificed so much and continue to do so. We 
are determined to bring this war to a successful conclusion for 
the sake of our own security, but also for the sake of the 
security of the Afghan people and the Pakistani people who have 
suffered so much, and have so much to gain from a secure and 
lasting peace.
    Members of this committee, I want to conclude by thanking 
you for providing the opportunity for us to appear before you 
today, but also for your continued and invaluable support to 
the men and women who serve and your support for the policies 
and programs that are absolutely critical to our success in 
Afghanistan and in Pakistan.
    Thank you.
    [The prepared statement of Secretary Flournoy can be found 
in the Appendix on page 69.]
    The Chairman. Thank you.
    General Petraeus.

     STATEMENT OF GEN. DAVID H. PETRAEUS, USA, COMMANDER, 
    INTERNATIONAL SECURITY ASSISTANCE FORCE AND U.S. FORCES-
                          AFGHANISTAN

    General Petraeus. Mr. Chairman, Ranking Member Smith, it is 
a privilege to be here today with Under Secretary Flournoy to 
report on the situation in Afghanistan.
    Before I proceed, however, I too would like again to offer 
my sincere condolences to the people of Japan as they work to 
recover from one of the worst natural disasters in their 
history.
    As the Under Secretary noted, for many years now Japan has 
been a stalwart partner in Afghanistan and an important 
contributor to the mission there. Now our thoughts and our 
prayers are indeed with our long-time allies and with all those 
in Japan affected by the earthquake and the tsunami.
    As a bottom line up front, it is ISAF's assessment that the 
momentum achieved by the Taliban in Afghanistan since 2005 has 
been arrested in much of the country and reversed in a number 
of important areas.
    However, while the security progress achieved over the past 
year is significant, it is also fragile and reversible. 
Moreover, it is clear that much difficult work lies ahead with 
our Afghan partners to solidify and expand our gains in the 
face of the expected Taliban spring offensive.
    Nonetheless, the hard-fought achievements in 2010 and early 
2011 have enabled the joint Afghan-NATO [North Atlantic Treaty 
Organization] transition board to recommend initiation this 
spring of transition to Afghan lead in several provinces.
    The achievements of the past year are also very important 
as I prepare to provide options and a recommendation to 
President Obama for commencement of the drawdown of the U.S. 
surge forces in July.
    Of note as well, the progress achieved has put us on the 
right azimuth to accomplish the objectives agreed upon at last 
November's Lisbon summit, specifically that of Afghan forces in 
the lead throughout the country by the end of 2014.
    The achievements of 2010 and early 2011 have been enabled 
by a determined effort to get the inputs right in Afghanistan. 
With the strong support of the United States and the 47 other 
troop-contributing countries, ISAF has focused enormous 
attention and resources over the past 2 years on building the 
organizations needed to conduct a comprehensive civil-military 
counterinsurgency campaign, on staffing those organizations 
properly, on developing in close coordination with our Afghan 
partners the requisite concepts and plans, and above all on 
deploying the additional forces, civilians and funding needed.
    Indeed, more than 87,000 additional NATO-ISAF troopers and 
1,000 additional civilians have been added to the effort in 
Afghanistan since the beginning of 2009. And Afghanistan 
security forces have grown by over 122,000 in that time as 
well.
    Getting the inputs right has enabled our forces, together 
with Afghan forces, to conduct the comprehensive campaign 
necessary to achieve our goals in Afghanistan.
    Our core objective is, of course, ensuring that Afghanistan 
does not once again become a sanctuary for Al Qaeda. Achieving 
that objective requires that we help Afghanistan develop 
sufficient capabilities to secure and to govern itself. And 
that effort requires the execution of the comprehensive civil-
military effort on which we are now embarked.
    Over the past year in particular, ISAF elements, together 
with our Afghan and international partners, have increased all 
the activities of our comprehensive campaign substantially.
    We have, for example, stepped up the tempo of precise, 
intelligence-driven operations to capture or kill insurgent 
leaders. In a typical 90-day period, in fact, precision 
operations by U.S. special mission units and their Afghan 
partners alone kill or capture some 360 targeted insurgent 
leaders.
    Moreover, intelligence-driven operations are now 
coordinated with senior officers of the relevant Afghan 
ministries, and virtually all include highly trained Afghan 
soldiers or police, with some Afghan elements now in the lead 
on these operations, particularly in the Kabul area.
    We have also expanded considerably joint ISAF-Afghan 
operations to clear the Taliban from important, long-held safe 
havens, and then to hold and build in them.
    ISAF and Afghan troopers have, for example, cleared such 
critical areas as the districts west of Kandahar that were the 
birthplace of the Taliban movement, as well as important 
districts of Helmand province, areas that expand the Kabul 
security bubble, and select locations in the north where the 
Taliban expanded its presence in recent years.
    One result of such operations has been a four-fold increase 
in recent months in the numbers of weapons and explosives 
caches turned in and found. Another has been the gradual 
development of local governance and economic revival in the 
growing security bubbles.
    In fact, Marjah, the one-time hub of the Taliban and the 
illegal narcotics industry in central Helmand province, held an 
election for a community council on March 1st during which 75 
percent of registered voters cast a ballot.
    And as a result of improvements in the security situation 
there, the markets, which once sold weapons, explosives and 
illegal narcotics, now feature over 1,500 shops selling food, 
clothes and household goods.
    We have positioned more forces as well to interdict the 
flow of fighters and explosives from insurgent sanctuaries in 
Pakistan. And we will do further work with our Afghan partners 
to establish as much of a defense in-depth as is possible to 
disrupt infiltration of Taliban and Haqqani network members 
from those sanctuaries.
    Meanwhile, we are coordinating more closely than ever with 
the Pakistani army to conduct ISAF operations that will provide 
the anvil on the Afghan side of the Durand Line against which 
Pakistani Taliban elements can be driven by Pakistani 
operations in the border areas.
    With your support, we have also devoted substantial 
additional resources to the development of Afghanistan's 
security forces. This effort is, of course, another important 
component of our comprehensive approach. Indeed, it is arguably 
the most critical element in our effort to help Afghanistan 
develop the capability to secure itself.
    We have seen significant progress in this arena over the 
past year, but we have had to contend with innumerable 
challenges, and our Afghan partners are the first to note that 
the quality of some elements is still uneven.
    The train-and-equip mission is, in fact, a huge 
undertaking, and there is nothing easy about it. However, the 
past year alone has seen Afghan forces grow by over one-third, 
adding some 70,000 soldiers and police. And, notably, those 
forces have grown in quality, not just in quantity.
    Investments in leader development, literacy and 
institutions have yielded significant dividends. In fact, in 
the hard fighting west of Kandahar in late 2010, Afghan forces 
comprised some 60 percent of the overall force, and they fought 
with skill and courage.
    As the Under Secretary noted, President Karzai's Afghan 
Local Police Initiative has also been an important addition to 
the overall campaign. It is, in essence, a community watch with 
AK-47s under the local district chief of police, with members 
nominated by a representative shura council, vetted by the 
Afghan intel service, and trained by and partnered with Afghan 
police and U.S. special forces elements.
    The initiative does more than just allow the arming of 
local forces and the conduct of limited defensive missions. 
Through the way each unit is established, this program actually 
mobilizes communities in self-defense against those who would 
undermine security in their areas. For that reason, the growth 
of these elements is of particular concern to the Taliban, 
whose ability to intimidate the population is limited 
increasingly by it.
    There are currently 70 districts identified for Afghan 
Local Police elements, with each district's authorization 
averaging 300 ALP members. Twenty-seven of the district ALP 
elements have been validated already for full operations, while 
the other 43 are in various stages of being established.
    This program has emerged as so important to our overall 
effort that I have put a conventional U.S. infantry battalion 
under the operational control of our Special Operations Command 
in Afghanistan to augment our special forces and increase our 
ability to support the program's expansion.
    We have increased as well our efforts to enable the Afghan 
government's work and that of international community civilians 
to improve governance, economic development and the provision 
of basic services.
    These are essential elements of the effort to shift 
delivery of basic services from provincial reconstruction teams 
and international organizations to Afghan government elements, 
thereby addressing President Karzai's understandable concerns 
about parallel institutions.
    And we have provided assistance for new Afghan government-
led initiatives in reintegration, supporting the recently 
established Afghan High Peace Council and provincial peace and 
reintegration councils.
    Indeed, we recognize that we and our Afghan partners cannot 
just kill or capture our way out of the insurgency in 
Afghanistan. Afghan-led reintegration of reconcilable 
insurgents must be an important element of the strategy--and it 
now is.
    In fact, some 700 former Taliban have now officially 
reintegrated with Afghan authorities, and some 2,000 more are 
in various stages of the reintegration process.
    All of these efforts are part of our comprehensive civil-
military approach, and we have worked hard to coordinate ISAF 
activities with the international organizations and diplomatic 
missions in Afghanistan, as well as with our Afghan partners.
    We have also sought to ensure that we minimize loss of 
innocent civilian life in the course of our operations, even as 
we also ensure protection of our forces and our Afghan 
partners.
    Of note, a recently released U.N. [United Nations] study 
observed that civilian casualties due to ISAF and Afghan force 
operations decreased by just over 20 percent in 2010, even as 
our total forces increased by over 100,000 and significant 
offensive operations were launched.
    Our progress in this area notwithstanding, in view of 
several tragic incidents in recent weeks, I ordered a review of 
our tactical directive on the use of force by all levels of our 
chain of command and with the air crews of our attack 
helicopters.
    I also reemphasized instructions on reducing damage to 
infrastructure and property to an absolute minimum. 
Counterinsurgents cannot succeed if they harm the people they 
are striving to protect.
    As I noted at the outset, the Joint NATO-Afghan Inteqal, or 
Transition Board, has recommended to President Karzai and NATO 
leaders commencement of transition in select provinces in the 
next few months. President Karzai will announce these locations 
in a speech next week.
    In keeping with the principles adopted by the North 
Atlantic Council to guide transition, the shifting of 
responsibility from ISAF to Afghan forces will be conducted at 
a pace determined by conditions on the ground, with assessments 
provided from the bottom up so that those at operational 
command level in Afghanistan can plan the resulting battlefield 
geometry adjustments with our Afghan partners.
    According to the NATO principles, transition will see our 
forces thinning out, not just handing off, with reinvestment of 
some of the forces freed up by transition in contiguous areas 
or in training missions where more work is needed.
    Similar processes are also taking place as we commence 
transition of certain training and institutional functions from 
ISAF trainers to their Afghan counterparts.
    As we embark on the process of transition, we should keep 
in mind, as the Under Secretary stressed, the imperative of 
ensuring that the transition actions we take will be 
irreversible. As the ambassadors of several ISAF countries 
emphasized at one recent NATO meeting, we will get one shot at 
transition, and we need to get it right.
    As a number of ISAF national leaders have noted in recent 
months, we need to focus not just on the year ahead, but 
increasingly on the goal agreed at Lisbon of having Afghan 
forces in the lead throughout Afghanistan by the end of 2014.
    Indeed, we need to ensure that we take a sufficiently long 
view to ensure that our actions in the months ahead enable 
long-term achievement in the years ahead.
    We have refined our campaign plan to do just that, and we 
are also now beginning to look beyond 2014, as well, as the 
United States and Afghanistan, and NATO and Afghanistan discuss 
possible strategic partnerships. All of this is enormously 
reassuring to our Afghan partners and of considerable concern 
to the Taliban.
    With respect to the Taliban, appreciation that there will 
be an enduring commitment of some form by the international 
community to Afghanistan is important to the insurgents' 
recognition that reconciliation, rather than continued 
fighting, should be their goal.
    Before concluding, there are four additional issues I would 
like to highlight to the committee.
    First, I am concerned that levels of funding for our State 
Department and USAID [United States Agency for International 
Development] partners will not sufficiently enable them to 
build on the hard-fought security achievements of our men and 
women in uniform. Inadequate resourcing of our civilian 
partners could, in fact, jeopardize accomplishment of the 
overall mission.
    I offer that assessment, noting that we have just completed 
a joint civil-military campaign plan between U.S. Forces-
Afghanistan and the U.S. Embassy, which emphasizes the critical 
integration of civilian and military efforts in an endeavor 
such as that in Afghanistan.
    Second, I want to echo the Under Secretary's expression of 
deep appreciation for your support of vital additional 
capabilities for our troopers. The funding you have provided 
has, for example, enabled the rapid deployment of a substantial 
increase in the intelligence, surveillance and reconnaissance 
assets supporting our forces.
    To take one example, we have increased the number of 
various types of persistent surveillance systems--essentially 
blimps and towers with optics--from 114 this past August to 184 
at the present, with plans for continued increases throughout 
this year.
    Your support has also enabled the rapid procurement and 
deployment of the all-terrain vehicle version of the Mine 
Resistant, Ambush Protected family of vehicles, with 6,700 
fielded just since I took command 8\1\2 months ago.
    And your support has continued to provide our commanders 
with another critical element of our strategy, the Commander's 
Emergency Response Program funding that has once again proven 
absolutely invaluable as a way of capitalizing rapidly on hard-
won gains on the ground.
    Indeed, CERP funding, the establishment of the Afghan 
Infrastructure Fund, and the specific authorization for the 
reintegration program funding have been instrumental in 
enabling key components of our overall effort.
    Third, I should at this point also highlight the critical 
work of the World Bank and the Asian Development Bank. These 
institutions are the largest donors to Afghanistan after the 
United States, and they have been critical to the success of 
such projects such as the Ring Road and the Uzbek-Afghan 
railroad.
    We need these critical enabling institutions, and further 
U.S. support for them will ensure that they are able to 
continue to contribute as significantly as they have in the 
past.
    Fourth, I also want to thank you for the substantial 
funding for the development of the Afghan National Security 
Forces. The continued growth of Afghan forces in quantity, 
quality and capability is, needless to say, essential to the 
process of transition of security tasks from ISAF to Afghan 
forces, and the resources you have provided for this component 
of our effort have been the critical enabler of it.
    In closing, the past 8 months have seen important, but 
hard-fought progress in Afghanistan. Key insurgent safe havens 
have been taken away from the Taliban. Numerous insurgent 
leaders have been killed or captured. And hundreds of 
reconcilable mid-level leaders and fighters have been 
reintegrated into Afghan society.
    Meanwhile, Afghan forces have grown in number and in 
capability. Local security solutions have been instituted, and 
security improvements in key areas like Kabul, Kandahar and 
Helmand provinces have in turn enabled progress in the areas of 
governance and development as well.
    None of this has been easy. The progress achieved has 
entailed hard fighting and considerable sacrifice. There have 
been tough losses along the way, and there have been setbacks 
as well as successes.
    Indeed, the experience has been akin to that of a roller-
coaster ride. The trajectory has generally been upward since 
last summer, but there certainly have been significant bumps 
and difficult reverses at various points.
    Nonetheless, although the insurgents are already striving 
to regain lost momentum and lost safe havens as we enter the 
spring fighting season, we believe that we will be able to 
build on the momentum achieved in 2010, though that clearly 
will entail additional tough fighting.
    As many of you have noted in the past, and as you noted 
this morning here, Chairman and Ranking Member, our objectives 
in Afghanistan and in the region are of vital importance, and 
we must do all that we can to achieve those objectives.
    Those of us on the ground believe that the strategy on 
which we are embarked provides the best approach for doing just 
that, noting, as dialogue with President Karzai has reminded us 
at various points, that we must constantly refine our 
activities in response to changes in the circumstances on the 
ground.
    Needless to say, we will continue to make such adjustments 
in close consultation with our Afghan and international 
counterparts as the situation evolves.
    Finally, I want to thank each of you for your continued 
support of our country's men and women in Afghanistan and their 
families. As I have noted to you before, nothing means more to 
them than knowing that what they are doing is important and 
knowing that their sacrifices are appreciated by their leaders 
and their fellow citizens back home.
    Each of you has sought to convey that sense to them and we 
are very grateful to you for doing so. Thank you very much.
    [The prepared statement of General Petraeus can be found in 
the Appendix on page 83.]
    The Chairman. Thank you.
    In every speech that the President has given on Afghanistan 
since December of 2009 he has emphasized the withdrawal of U.S. 
forces that will begin in July of 2011.
    At the same time, Administration officials have assured us 
that any such withdrawal will be conditions-based.
    General Petraeus, in your best professional military 
judgment, would you recommend that the July 2011 redeployment 
include the withdrawal of combat forces?
    General Petraeus. Mr. Chairman, I am still formulating the 
options that I will provide to the President and the 
recommendation that I will make. But I do believe that there 
will be some combat forces included in those options and in 
that recommendation.
    Indeed, if I could, I think--and I mentioned this to the 
SASC [Senate Armed Services Committee] yesterday, because 
people were talking about Secretary Gates' message to the 
ministers of defense at NATO, getting the job done right, and 
then also about transition initiation and initiation of the 
responsible drawdown, to use the President's term, of surge 
forces in July.
    I think it is logical to talk both about getting the job 
done right, as he did to his NATO counterparts, and about 
beginning transition and commencing the responsible drawdown of 
surge forces--again, at a pace determined by conditions on the 
ground.
    Those conditions that I will assess will clearly include an 
assessment of the Afghan National Security Forces and their 
ability to do more as we do less, as we thin out but don't hand 
off, in accordance with transition principles, needless to say, 
the security situation and whether they can indeed handle it, 
if it has been reduced to that point, and how they have grown 
in their capability.
    But we also must include, as both of you noted, governance 
and development, because those elements have a direct effect on 
the security situation. If governance is seen as legitimate in 
the eyes of the people, if it gains their support and their 
willing participation, then indeed, obviously, you are able to 
build on the hard-fought security gains, on the foundation of 
security that is essential but is not enough.
    And then beyond that, of course, the gradual development in 
the economic realm, in the provision of basic services, with 
increasingly those services being provided by Afghan rather 
than international organizations is also essential to that. So 
these are the components, again, the very broad components, and 
we have got quite a rigorous assessment criteria that we 
employ. But those are the big ideas, if you will, that form the 
core of our assessments.
    The Chairman. Thank you.
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Just two questions, focusing on that transition, on getting 
to the point where the Afghans take over responsibility, 
frankly, for all elements of the security, governance.
    I think the struggle is, we can lay out the arguments, and 
I think you laid out them fairly well, about why it is 
important, what we are doing to try to get us to that point. 
But what you will need, I think, to make the argument better is 
sort of measurable signs of progress. What can we look to, you 
know, before that point when we are all gone? I mean, we could 
just leave and see if they can figure it out, but I think you 
would--we would all agree that that is, you know, not a good 
plan at this point.
    But what we need to see is measurable progress. You know, 
what can we point to in the next year--well, next few months as 
well as the next year or 2--that shows, here is evidence that 
they will be able to handle it, they will be able to take 
responsibility for security, and again on governance? I think 
that is the biggest challenge in terms of the way the Afghan 
governance structure is put up.
    What can you give us in terms of measurable, instead of 
just saying, you know, July, you know, 2014 or 2011, here is 
where we need to be to know that we have gotten where we can 
safely make that hand-off?
    General Petraeus. Congressman, that is a great question. In 
fact, we often are asked out there, ``When will the Afghans 
step up to the plate?'' and that kind of question, which I 
think is an understandable and reasonable question. And these 
questions often take place while we are in Kabul with visitors.
    And I will note quite often that, in fact, in the area that 
they are located, it is Afghans who have assumed the lead in 
security tasks, in Kabul, the greater Kabul area, which 
includes some one-fifth to one-quarter of the entire country's 
population, somewhere around 5 million or so people.
    And the face of security on the streets of Kabul, without 
question, is the Afghan police. And a little further out it 
becomes the Afghan National Army.
    And every single night in Kabul there are precision, 
intelligence-driven operations to capture or kill, arrest, 
because we have actually gone to a--``we,'' the Afghans, have 
gone to a rule-of-law-based detention system in the greater 
Kabul area for the most part--going after those organizations, 
Taliban, Haqqani Network, IMU [the Islamic Movement of 
Uzbekistan] and others that are trying to disrupt security 
there and have indeed periodically conducted sensational 
attacks.
    Although the past 9, 10 months or so, those periodic 
attacks notwithstanding, have seen really quite good security 
by really any standard. In fact, President Karzai a few months 
back was asking what was it that was leading to this? In my 
view, what was it?
    And it was, of course, the comprehensive approach, but it 
was indeed Afghan forces in the lead disrupting these different 
cells that are trying to carry out attacks on the Afghan people 
and Afghan institutions.
    So I think right there, you have a very good example, 
essentially, of what--generally looks like and we will see if, 
you know, that is among the areas in which transition may 
proceed when President Karzai makes his announcement. But we 
have literally only got basically two battalions, a little bit 
more than that, of ISAF forces there, and they have very 
largely stepped back already and are what we would call a 
tactical or even operational over-watch stage even at this 
point.
    Mr. Smith. Thank you.
    Another question is about why it is important to make it 
clear that we are at some point leaving. And I know it is a 
delicate, difficult balance because you can make the one 
argument that says, well, the second we say that we are 
leaving, they just know they have to wait us out.
    But on the other hand, if we don't make it clear that we 
are leaving, then we appear to be an occupying force. We 
strengthen the insurgency. We also, you know, create dependence 
in some different elements of Afghan society.
    And the goal here isn't that the second we leave, the other 
side wins. The goal here is, as we said, that we build up the 
strength of the Afghan forces and the Afghan government so when 
we leave, the Afghan people win.
    But talk a little bit about why it is important to deliver 
that----
    General Petraeus. Well, it is a very important message. 
First of all, it undercuts the Taliban narrative, of course, 
that we intend to stay forever, that we want permanent bases, 
that we want to dominate the region or take Afghanistan's 
mineral wealth. You name it. There is a number of different 
conspiracy theories out there, and this pokes a hole in all of 
those.
    Second, it does indeed impart a message of urgency. And I 
think we have to remember that President Obama's speech, the 
whole July 2011 issue, if you will, was intended to complement 
the message of enormous additional commitment on the 1st of 
December at West Point, you know, 30,000 extra forces, tripling 
the number of civilians, substantial additional funding request 
for Afghan national security forces and so on.
    That was complemented, but we are not going to do this 
forever. Eighteen months from now, Afghan forces are going to 
need to begin to step up to the plate as well.
    And I think that message of urgency has resonated, frankly. 
I think it has made a difference. And Secretary Gates in 
discussing this whole issue with the SASC a couple of weeks ago 
I think quite effectively laid out, you know, on the one hand 
his normal resistance to timelines and so forth during Iraq, 
but also his recognition of the value of, again, a message that 
can convey a sense of urgency to all of our partners, but 
specifically to our Afghan partner so that there is not a sense 
of dependency that is infinite.
    Mr. Smith. Okay. Yes?
    Secretary Flournoy. If I may just add, you know, as we 
begin this transition process, we are also placing great 
emphasis on discussing with the Afghans what the nature of a 
long-term partnership might look like. Because even as we begin 
the drawdown of our surge forces and eventually can envision a 
broader reduction in our military presence, we don't intend to 
leave Afghanistan in the sense of pull up tracks, abandon, 
leave them to their own devices.
    We are, as the President said from the beginning, we are 
making an enduring commitment to our core goals and to the 
partnership with Afghanistan to achieve them. And that is going 
to involve long-term security assistance. It is going to 
involve help in building their capacity, their economic 
development, and so forth.
    So we are very actively discussing the terms of that 
partnership even as we begin this transition process, to 
reassure them of our commitment.
    Mr. Smith. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. General Petraeus, a bit more than a week ago, 
you graciously hosted our CODEL [Congressional Delegation] in 
Kabul. You were very generous with your time and energy, sir. 
Because time and resources permitted, you gave us a longer and 
more thorough brief than could be afforded by your testimony 
here today. So I have had more than ample opportunity to have 
my questions answered.
    I therefore will yield my time to our most junior member 
who was present here at gavel-fall, Congresswoman Roby.
    Mrs. Roby. Thank you, Mr. Chairman, and thank you so much, 
Representative Bartlett.
    And I just want to tell you guys how much I appreciate your 
testimony here today and being with us.
    General Petraeus, as the commander of our forces in 
Afghanistan, what is your view on the advisability of the House 
of Representatives passing a resolution offered by 
Representative Kucinich that would call for the removal of all 
U.S. forces from Afghanistan no later than December 31st, 2011? 
And specifically, how do you believe our troops would view such 
a measure? And how do you believe the Taliban and Al Qaeda 
would view such a measure?
    General Petraeus. Well, to start with the latter elements, 
the Taliban and Al Qaeda obviously would trumpet this as a 
victory, as a success. Needless to say, it would completely 
undermine everything that our troops have fought so much for 
and sacrificed so much for.
    Ultimately, though, this is about our vital national 
security interests. And as President Obama has identified them, 
foremost among these is ensuring that Al Qaeda and other 
transnational extremists cannot reestablish sanctuaries such as 
they had in Afghanistan under Taliban rule when the 9/11 
attacks were planned in Afghanistan. The initial training of 
the attackers was carried out in Afghanistan before the 
attackers moved on to Germany and then U.S. flight schools, and 
then carried out their acts of terror.
    So needless to say, this would close the door on the very, 
very hard-fought effort and a mission that I think is seeking 
to achieve a very, very important security objective of our 
country, as well as of our allies. Again, there are 48 troop-
contributing nations, including the U.S.--I think among the 
biggest alliances, certainly way beyond just NATO. It is NATO 
plus ISAF troop-contributing nations. And what it would do in 
the region, of course, would be of really incalculable 
consequence as well.
    Mrs. Roby. And for our troops?
    General Petraeus. Well, you know, when we have taken in 
particular I think tough losses, and I remember the first time 
when I was a division commander in Iraq in 2003 and we had a 
horrible night. We had two Black Hawk helicopters that 
collided. One was circling an operation, the other for some 
reason transited, and 17 great troops were killed in a single 
crash in a single night.
    And as you might imagine, this is all that a commander, it 
is all that an organization can think about even after we had 
done the recovery in the middle of the night and everything 
else. And on the way out of the command post the next morning, 
we were trying to go through the motions of getting back to the 
normal battle rhythm, because you have to drive on. You have to 
continue the mission.
    And it was a young private first class actually saw me 
walking out of the hallway of the command post, and he 
literally put his arm around me, and he said, ``You know, sir, 
that is 17 reasons to get this thing right.'' We have had well 
over 1,000 reasons to get this thing right and many thousands 
more whose lives have been changed forever because of grievous 
wounds. And again, obviously, this would not allow us to get 
this right.
    Mrs. Roby. Thank you so much.
    I yield back.
    The Chairman. Thank you.
    Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    Madam Secretary, thank you for your service.
    General Petraeus, thank you for your heroic embrace of a 
couple of major problems for this country, and all that you 
have done to help solve them.
    I want to go back to Mr. Smith's question about the metrics 
that you will be looking at and we should be looking at to 
determine on-the-ground conditions that would determine the 
pace at which we would withdraw.
    I notice on the chart that you gave us, page 16 of the 
document that is ANSF capability in the field. These quality 
measures of police and Afghan military readiness, are these 
going to play a central role in your determination of the on-
the-ground circumstances?
    General Petraeus. They do already and they certainly will. 
We look very closely at the capability of the forces. We try to 
make this as rigorous and absolutely forthright as we can. 
These are not measures of just quantitative items. In other 
words, it is not just do they have 80 percent or better of 
their equipment; does it work; this and that.
    It also includes subjective evaluations of leadership in 
the organizations and, frankly, their fighting capability.
    Mr. Andrews. I notice that on both the police and army 
readiness measures, none of the units are at the ``green'' or 
``independent'' level yet that you are looking at. But it does 
look like the trending is good. On the police units, in May of 
2010, 35 out of 293 units were at the ``effective with 
advisers'' level. By February, that was 96 out of 313.
    In the army, the similar comparison would have been a jump 
from 27 units out of 115, up to 52 out of 157.
    What do you think is going to happen to that pace in both 
the police and the army, let's say, in the next 6-month window? 
What can we expect?
    General Petraeus. Well, we certainly have every objective 
of increasing, again, the quality of the performance of these 
organizations. Keep in mind that one reason that they are 
generally not seen as capable of independent activities is 
because the forces don't have the enablers that are necessary 
to do this. And that is, in fact, our effort with the Afghan 
national security forces is shifting increasingly from building 
more infantry battalions or Afghan national civil order police 
battalions--in other words, combat forces--to building more 
combat support forces--artillery and light armor, logistics and 
military intelligence.
    Mr. Andrews. I would assume that if that works, we might 
see sort of an exponential jump in readiness because as more 
leaders become more battle-tested, they can elevate the level 
of performance in more units. Is that right?
    General Petraeus. I am not sure that I would share 
``exponential.'' I think we will see a steady increase in the 
development of these forces.
    But again, the real challenge you just put your finger on, 
Congressman, and that is leadership. It is leader development. 
And you can develop private soldiers, you can develop young 
policemen, but development of leaders who can command 
companies, battalions, brigades and corps, in their structures, 
just as in ours, takes years. And it takes not just, again, 
training and experience in the battlefield, it literally takes 
education and professional military development.
    Mr. Andrews. I wanted to come back to the comment you made 
at the bottom of page 3, your testimony, where you are 
concerned about--or, excuse me, I am on the wrong page--but you 
expressed your concern about ``underfunding our AID and State 
Department efforts.''
    I think I know the answer to this question, but describe to 
us what you think would happen if we made the error of 
underfunding those efforts as a follow-on to the sacrifices of 
the servicemembers in uniform.
    General Petraeus. Well, again, it would deprive us of the 
ability to build on the hard-fought security gains. Again, 
security if the foundation on which all else is built. And once 
you have it, though, you do have to build on it, because it 
actually strengthens the foundation.
    This is not a linear development, this is not security then 
governance then confidence, or what have you, although there is 
a little bit of that, there is really a spiral effect, where a 
bit of progress in the security arena allows a bit of progress, 
say, in local governance, which now lets the market reopen, 
which means that now the people give you a little more 
intelligence, tell you where the weapons--right. Just as the 
upward spiral can succeed and an underfunding would create a 
downward spiral that could get us right back in the same 
hornet's nest.
    General Petraeus. It can. And it can--you know, it can 
enter a death spiral. And that is what you always are seeking 
to avoid, needless to say.
    Mr. Andrews. Thank you very much for your time this 
morning.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    I appreciate you all's efforts to put a silver lining on 
the dark cloud of the July withdrawal date, but, as I summarize 
your testimony, it is, we are just getting the inputs right. We 
are making significant progress. That progress is fragile and 
reversible. And we are going to leave in July, no matter what.
    Now, we are going to be careful about it, where we leave 
and how we leave, and we are going to try not to pull the rug 
out from under anyone.
    But if I am an Afghan, trying to figure out which side I am 
going to come down on, or if I am a Taliban, trying to pace my 
activities, or even if--or my own troops, I am not sure I 
follow that logic.
    But I understand that the President said it, and that is 
what is happening. But I worry about whether it undercuts our 
efforts there.
    General, I would like to ask about corruption, because we 
hear a lot about that. But I was intrigued by an article in The 
American Interest by Lawrence Rosen, who basically argues that 
the idea of corruption in a tribal society is fundamentally 
different from the way we view corruption.
    And, as a matter of fact, he says that for Afghans to 
understand corruptions as American do more or less entails they 
are having to experience the whole web of religious, social and 
economic concepts that we have experienced. That really is 
asking too much.
    Are we asking them too much on the anti-corruption piece of 
this?
    General Petraeus. Well, thanks, Congressman.
    And, first, if I could just very quickly comment on the 
July 2011, I think you would be correct if it were not for the 
Lisbon and 2014 date that was agreed at Lisbon. That I think 
was very reassuring to the Afghan people.
    There is no question that as we explained July 2011, the 
concept of a message of urgency to complement the additional 
huge commitment of the United States and so forth, that there 
was a residual doubt.
    But I remember going out into a small village in western 
Afghanistan a week or so after returning from the Lisbon summit 
where, of course, all the NATO ISAF leaders agreed that the 
goal would be Afghan forces in the lead by the end of 2014, 
and, indeed, they were already talking about the concept of 
beyond 2014 with a NATO and Afghan and then U.S. and Afghan 
strategic partnership agreement, discussions on which have now 
begun.
    And I was out there in this little village. There is no 
electricity. There is no satellite dishes. There is very little 
of anything. Crowd gathered around in the marketplace. And I 
thought I would try to explain what a summit was and what took 
place at Lisbon, a place far, far away and so forth.
    And I started into this. And I said, ``You know, there was 
a big meeting held a week ago.''
    And he said, ``You mean the Lisbon summit, General?''
    And I said, ``Yes, did you hear about that?''
    And he said, ``Of course, all Afghans are politicians. And 
we all listen to BBC-Pashtu [British Broadcasting Cooperation--
Pashtu] every night.'' And he said, ``We were very reassured to 
hear the leaders talk about the end of 2014.''
    So I think that, again, that, as Secretary Gates explained, 
there is something to a message of urgency, there is something 
to undercutting the Taliban narrative of staying forever, but 
there is also something, clearly, to a responsible, conditions-
based pace for drawdown.
    With respect to corruption, we are not, of course, trying 
to turn Afghanistan into Switzerland in a decade or less. There 
is a very realistic understanding of the conditions in tribal 
societies and in village-by-village, valley-by-valley in 
Afghanistan.
    Having said that, there is also a very clear understanding 
that what President Karzai and we have agreed to call criminal 
patronage networks, these are individuals breaking the law in 
substantial ways, they enjoy a degree of political protection 
and patronage, and they are not acting as individuals, they are 
networks, that these kinds of activities are a cancer that will 
undermine the very institutions to which we have to transition 
tasks and responsibilities for transition to succeed.
    He is quite seized with this. Brigadier General H.R. 
McMaster, one of our brightest Army brigadier generals, is 
heading the task force that is taking this on with our Afghan 
partners.
    In the second or third briefing to President Karzai on 
this, when we laid out to him the criminal patronage network 
that was essentially headed by the surgeon general of the 
Afghan military, he fired the individual on the spot, despite 
the individual having political protection, and then fired the 
entire chain of command of the Afghan army national hospital as 
well.
    Now, these are very tough issues. Again, we are after what 
is, in a sense, good enough for Afghanistan, again, not trying 
to apply a standard of a western industrialized democracy.
    But there are certain corrupt activities that do have to be 
dealt with, and, in particular, these that come under the 
rubric of criminal patronage networks are of huge importance.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And, Secretary Flournoy, and, of course, General Petraeus, 
we appreciate your appearance here, once again. And I don't 
know how many more appearances there are going to be, but you 
have been just a tremendous leader for us and we all appreciate 
that.
    I want to turn very quickly to the question that Mr. 
Andrews asked about the capability--Afghan capability in the 
field by the chart that you provided. And I, too, was looking 
for the independent and where that was.
    So, you said that that does not include enablers. Where 
does the----
    General Petraeus. Well, to be precise----
    Mrs. Davis [continuing]. Enabling----
    General Petraeus [continuing]. It is that the independent 
activity requires a sufficient level of Afghan enablers so that 
they can be independent. And the challenge right now is that in 
many cases, although the capabilities are building, but in many 
cases Afghan units still depend fairly heavily on ISAF elements 
or contracts or other vehicles to ensure their logistics, 
maintenance and other various----
    Mrs. Davis. And in order for that to move, in order for 
that to change, on what are they dependent, in terms of 
funding?
    General Petraeus. Again, the U.S.-provided Afghan Security 
Forces Fund is far and away the bulk of the funding. Now, 
certainly, there are other major contributors. Japan, for 
example, provides the salaries for Afghan police. There is 
another fund to which NATO ISAF countries contribute. But, 
again, it is the Afghan Security Forces Fund that is, without 
question----
    Mrs. Davis. Does that 20 to 24 percent cut, which I believe 
is in the C.R. [continuing resolution], in H.R. 1, how does 
that affect it?
    General Petraeus. Well, when that hits--and, again, we 
project that that would hit perhaps sometime in June, that 
would have an enormous effect, a negative effect, on our 
effort, needless to say. And it would undermine--it would 
undercut--our efforts to develop the enablers.
    Because, again, we have always had a progression, that 
first you develop guys who can help you in the fight, actually 
out there against the insurgents, and gradually you build the 
institutions, the ministries, the branch school staff colleges, 
leader development courses.
    By the way, literacy programs have featured very 
prominently now. We finally bit the bullet and said that, you 
know, having a soldier who can shoot but can't read a serial 
number off a weapon is not the way to go. So with basic 
training we also do basic literacy now, and we are way over 
100,000 that have either been trained or in the process of----
    Mrs. Davis. Could you provide a timeline then? Because, I 
mean, getting the independence and moving that to that place, 
even with the funding, sounds like a very ambitious 
undertaking.
    General Petraeus. Well, it is essential. We have to, again, 
ensure that Afghan forces, over time, can support themselves, 
both with combat service support and then the actual combat 
support, so artillery, mortars. They are developing a 
helicopter fleet, fixed-wing fleet.
    You know, I cut it out of the narrative to just cut time, 
but we occasionally say that this effort is so big and so 
complex and so challenging that it is like developing the--
building the world's aircraft while in flight, while it is 
being designed and while it is being shot at.
    Mrs. Davis. Do you think, General, that that is one of the 
reasons that the U.S. has grown so impatient with this effort, 
that trying to get one's head around it is a very difficult 
thing to do?
    General Petraeus. Well, I think there are a number of 
reasons. And, again, but I think the biggest is just that we 
have been at this for 10 years. And, unfortunately, as both the 
Under Secretary and I explained, we have only been at it in the 
right way, with the inputs having been gotten right, with that 
for less than 6 months or so.
    It is just last fall. Though, clearly, as we were 
developing the inputs, we were also seeking to produce outputs.
    Secretary Flournoy. If I could just add, you mentioned the 
potential cut to funding for the ANSF that the C.R. would 
involve. And I think it would be devastating at this point, not 
only in terms of building their further capability for 
independent operations, but also these are the same--this is 
the same funding that supports units that will be critical to 
continued partnering, to eventual transition, where they start 
holding real ground or expanding the amount of ground that they 
hold in the lead. And so it could really complicate broader 
timelines beyond just the development of the NSF.
    So it is really, really crucial to keep that funding at the 
appropriate levels.
    Mrs. Davis. Thank you.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you.
    Madam Secretary and General Petraeus, it is an honor to 
have you before us today.
    And I want to read a couple comments, and then I will just 
have one simple question for you.
    I pulled the quotes from Secretary Gates a couple weeks ago 
about the 2014 withdrawal, excuse me. I want to read this to 
you. Says, ``That is why we believe that beginning in fiscal 
year 2015 the U.S. can, with minimal risks, begin reducing Army 
active duty end strength by 27,000 and the Marine Corps by 
somewhere between 15,000 and 20,000.''
    These projections assume that the number of troops in 
Afghanistan would be significantly reduced by the end of 2014, 
in accordance with the President's strategy. So I assume from 
that that we are talking about 2014, 2015, with a large number 
of our military in Afghanistan.
    Just a couple things. I have got Camp Lejeune in my 
district. I think I am pretty close to the Marine Corps. I 
don't have a military background, but I listen to them very 
carefully. And I have a couple of friends who are generals that 
are active duty, a couple that are retired. I am not going to 
mention their names, it wouldn't be fair, so I am not going to 
do that.
    But recently I was down in Jacksonville and spoke to a 
group, and I said, ``I know you all probably would disagree 
with me, but I am for getting our troops out in a reasonable 
time in a safe way.''
    So this Marine, 31 years in the Marine Corps, retired as a 
lieutenant colonel, said, ``No, let me tell you. I talk to 
active duty Marines, and many of them are just tired and want 
out. They don't see the end point.''
    I am getting to something else and then the question.
    So he said--I said, ``Well, could I use your name during a 
debate?''
    He said, ``I will give you a letter.'' And I will just read 
a couple sentences and I will get toward the end, because time 
is moving forward.
    ``It makes no difference if we are there 4 or 40 years, the 
result will be the same. The war is costing the United States 
billions of dollars a month to wage and will still continue to 
get more young Americans killed. Afghans have no end state for 
us, it has no end state for us.
    ``I urge you to make a contact with all the current and 
newly elected members of Congress and ask them to end this war 
and bring our young men and women home. If any of my comments 
will assist you in this effort, you are welcome to use them and 
my name, Lieutenant Colonel Dennis Adams.''
    The retired general that I made mention to that I cannot 
tell you his name, but I think you would know it if I could, I 
asked him after the comments came out by Senator McCain and 
Lieberman, ``General, what do you think about 4 more years?''
    These are his thoughts. ``I do not believe that 40 more 
years will guarantee victory, whatever that is, so 4 will do 
nothing.'' Then he made comments about Lieutenant General John 
Kelly's son being killed.
    The other point--I won't have time to go through that, 
because I want to give you a chance to answer the questions. 
But in the latest poll that was released yesterday, I believe, 
by the ABC News-Washington Post poll, 73 percent of Americans 
say the United States should withdraw a substantial number of 
its combat forces from Afghanistan this summer, but just 39 
percent think it will.
    Well, after listening to Secretary Gates, who I respect, as 
I respect both of you, they are right, it ain't going to 
happen.
    My point is, I probably will not be sitting here in 2015. 
You might not be sitting at the panel in 2015. But if there 
would be a general or a madam secretary that would say to the 
Congress in 2015, ``We just need 2 or 3 more years to train the 
Afghans and to make sure that their governance can withstand,'' 
give me your thoughts on being--on 3 or 4 years from now having 
to say that.
    Would you think we are making progress if we have to be 
there longer than 2014, 2015? Or would you be honest with--not 
you personally, but the people sitting there, would they be 
honest with the Congress and say, ``You know, 15, 16, 17 years, 
for God sakes, how much more can we take, how much more can we 
give treasure and blood?''
    General Petraeus. Well, first of all, Congressman, let me 
reassure you of something that I have told you and this body 
before, and also the SASC, and that is if I ever felt that we 
couldn't achieve our objectives, that I would be very 
forthright with my chain of command, with the President of the 
United States, and with all of you.
    I believe the objectives are of enormous importance, as I 
stated earlier. You know, when I have--when the President asked 
me to deploy there on very short notice there was only one 
possible answer to that.
    You know, I may not be at this table, probably won't be at 
2015, but I will tell you that my son is in uniform, and 
Lieutenant Petraeus just completed a tour in Afghanistan, which 
thankfully we were able to keep very quiet, and redeployed in 
November, after serving as an infantry platoon leader. We are 
very proud of what he did. He thinks he was doing something 
very important.
    I, candidly, I mean, this sort of--I understand the 
impatience of the U.S. people. I am impatient. I remember one 
of your colleagues actually who came to Iraq at the--we were 
about 6 months into the surge, it was the height of the 
violence, it was extraordinarily difficult, and she told me, up 
front, she said, ``General, you need to know that I am a member 
of the out-of-Iraq caucus.'' And I said, ``Congresswoman, so am 
I. But I just want us to get out under the right conditions.''
    And I think that is what we are trying to do here, of 
course, is to achieve our objectives, gradually to transition 
tasks to our Afghan counterparts so that we can indeed hand off 
something to them that is sustainable and that avoids that 
country becoming the kind of sanctuary that it was in the past.
    The truth is we have tried the hands-off approach in this 
region before, in the wake of Charlie Wilson's war. We got 
tired of it, we cut off all funding, and the results were what 
they were. I am not sure that that is the right course of 
action in the future.
    The Chairman. Thank you.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    Madam Secretary, General, appreciate your being here today. 
I appreciate your excellent work.
    Can you tell me about Taliban recruiting, and the Haqqani 
Network and folks like that? To what extent are they augmenting 
their numbers, are they augmenting their capabilities?
    General Petraeus. Well, Congressman, the bulk of the 
Taliban are from within a relatively small radius of the 
fighters, they are within a relatively small radius of their 
village, their valley.
    The leaders may come from other areas. And, indeed, there 
is a recruiting of suicide bombers that does take place in some 
of the sanctuaries in Pakistan with the senior leaders, of 
course, never setting foot in Afghanistan but rather exhorting 
their troops to fight on by cell phone or H.F. [high frequency] 
radio.
    With the Haqqani Network there is indeed more recruiting 
that does take place in North Waziristan, although that area is 
under considerable pressure from the counterterrorist campaign 
that is being conducted there.
    Mr. Cooper. When I see a chart like the one on page 15 
about Afghan National Security Forces growth, how would you 
plot a chart showing Taliban forces or Haqqani Networks or 
other insurgents that our troops have to worry about?
    General Petraeus. That is a hotly debated topic, and we 
have a methodology for trying to determine the numbers of 
Taliban, keeping in mind that of course it goes up and goes 
down based on--and based on how things are going and so forth, 
recognizing that there is a fair amount of the population in 
Afghanistan, after 30 years of war, that can adopt chameleon-
like attributes as required to survive from day to day.
    The general assessment is that there has been somewhere 
around 25,000 Taliban at their peak that may be active at a 
given time. There is no question but that there have been 
significant losses sustained by mid-level leaders and fighters 
in certain areas in particular.
    There is also no question that these are resilient 
organizations and that they can find others to put into these 
positions, although there has been quite a replacement of 
Taliban leaders in recent months in particular because of upset 
by senior leaders with the performance of those on the 
battlefield in Afghanistan and also by some, in some cases, 
literally just having enough of it and voluntarily taking 
themselves out of the fight.
    Mr. Cooper. So your estimate would be that the Taliban was 
about 25,000, their top ranks have been hurt. What would be 
their current troop levels or force levels, about 25,000?
    General Petraeus. No, I would--again, it is still early in 
the fighting season. And, again, we will see--the way the 
methodology works is you literally build the organization as 
best you can in an analytical way by identifying.
    We have pretty accurate tree diagrams, if you will, wire 
diagrams and link diagrams that show who the leaders are at 
various levels, who they work for, and roughly how many 
fighters we assess that they have working for them.
    And as you aggregate this for a particular district and 
province and then country, that is how you get the estimate. 
And I am not sure that we would say that we are at that point 
in this particular fighting season by any means. We still 
assess that there is a fair number of leaders who are either 
just coming back or preparing to come back.
    Mr. Cooper. About how many people would be in the Haqqani 
Network?
    General Petraeus. Let me actually take that one for the 
record, if I could, and I will provide you the classified 
numbers of that and show you the structure of that 
organization.
    [The information referred to can be found in the Appendix 
on page 99.]
    Mr. Cooper. How about their fighting capabilities?
    General Petraeus. The Haqqani Network is generally assessed 
to be, again, the most challenging, frankly. Again, it is an 
organization that most also assess as certainly the senior 
leadership is very unlikely to reconcile. Where there is, on 
the other hand, a reasonable prospect for reconciliation of 
mid-level and below Taliban leaders who are in Afghanistan, and 
even the possibility of some of the more senior leaders 
breaking off and considering reconciliation.
    The fact is that there are some former senior Taliban 
government members who reconciled, if you will, living in 
Kabul, and are occasionally seen as conduits by the national 
High Peace Council and others with those who are still active.
    Mr. Cooper. I see that my time is expired.
    Thank you for your service, General.
    General Petraeus. And thanks for your support of our 
troopers in that great state, especially the Screaming Eagles.
    The Chairman. Thank you.
    Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    I would like to sort of move forward a little bit and ask 
an optimistic question. Let's say that we move forward a number 
of years and you put together the structure. And really, 
Afghanistan is looking pretty good. You have got your local 
police going, the military and all, even their support networks 
are somewhat developed.
    My first question is, then how capable are they to sustain 
something like that with the Pak border the way it is and with 
the infusion of people coming across the border? How much of a 
threat? And do you think they could be strong enough to 
basically hold the border and maintain some level of 
civilization?
    General Petraeus. Well, obviously a lot will depend on what 
Pakistan does over the years to help its neighbor to the west. 
It is generally assessed that the most effective way of 
influencing Pakistan, in fact, is by having it see that 
Afghanistan is going to turn out reasonably well; that indeed 
the Taliban-Haqqani Network and some of these other 
organizations will not prevail, and indeed therefore to 
reassess what relationships might exist with some of these 
organizations and whether it is time to deal with them a bit 
more on Pakistani soil where they have sanctuaries.
    Noting that the Pakistanis have sustained enormous losses 
in the conduct of quite an impressive counterinsurgency 
campaign in what used to be the North-West Frontier Province, 
in Khyber Pakhtunkhwa and then in various of the agencies of 
the Federally Administered Tribal Areas, while noting again 
that they also recognize that there is clearly more that needs 
to be done and that there are areas that need more attention.
    Mr. Akin. So I think the answer that I heard was it really 
depends a whole lot on Pakistan.
    General Petraeus. Well, clearly what happens in Afghanistan 
is related to what happens in Pakistan, but also vice-versa, 
and really even more broadly regionally. I think you have to 
take into account the actions of Iran, the actions of the 
central Asian states, and certainly India, and then even beyond 
that, Russia and others are all very important actors in the 
regional context of this effort.
    Mr. Akin. But your point is, a good example in Afghanistan 
kind of sets a higher bar for some of the other countries as 
well.
    General Petraeus. Well, and it gives them reassurance as 
well. Clearly, the central Asian states and all the way on up 
to Russia are very concerned about the prospect of 
transnational extremism flowing out of Afghanistan together 
with the flow of the illegal narcotics industry.
    Mr. Akin. Right.
    General Petraeus. That has enslaved the populations, 
enormous segments of the population in Iran, as well as in, 
again, Russia, Europe, and some of that even makes its way to 
the United States.
    Mr. Akin. That was going to be my second question, General. 
The economy, I don't think of Afghanistan as a very well-to-do 
economy and its main product, apparently, is heroin and 
poppies. How do you, in a sense, do you believe in phasing out 
that trade? Or do you just try and eradicate it whenever you 
see drugs? And how does that build into an economic model to 
rebuild on the foundation of stability that you are trying to 
create?
    General Petraeus. Well, first of all, we should keep in 
mind that there are literally trillions, with an ``S'' on the 
end, of dollars of minerals in the ground in Afghanistan. Now, 
you have got to get them out of the ground with human capital 
and capacity and--chain and transportation, everything else, to 
be able to exploit that for the good of the people of 
Afghanistan.
    But there are small steps going forward in that regard. 
There are more tenders out there now for some of these 
different opportunities. And it is our hope that this will 
reach critical mass, really, and they will see an economic 
chain reaction take off at some point as companies realize the 
extraordinary potential that is there, in some cases with 
minerals that are in very short supply elsewhere in the world. 
So that is a very important component to this.
    The illegal narcotics industry is of concern for a number 
of reasons. I mean, one, of course, is that it is again 
enslaving parts of the population of not just Afghanistan, but 
more so many of its neighbors and way beyond that.
    The other is that it is illegal, and how can you have rule 
of law in a country if the major export crop is illegal?
    Mr. Akin. I just, because our time is getting a little 
close, my question is just from a practical point of view, when 
you have got the people on the ground----
    General Petraeus. Oh, right.
    Mr. Akin [continuing]. Do you say, ``If you see it, burn 
it; destroy it,'' or whatever. How do you approach it?
    General Petraeus. First of all, if you deprive the little 
guy of his livelihood, you have just created more insurgents. 
So number one, if there is eradication--Afghan-led government 
eradication, because that is how it is done. And we might 
support it with an outer ring of security, but we also ensure 
that there is compensation so that these individuals are not 
out completely.
    Our target really is the big buys. It is the industry 
bosses and the labs and the large infrastructure that supports 
this industry that we go after, and that is our focus.
    Mr. Akin. Thank you, General.
    The Chairman. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, Madam Secretary and General once again for 
being before us.
    I have a couple of questions for you, General. We have been 
in Afghanistan about 10 years and we have lost over 1,400 U.S. 
lives, and we have spent more than $300 billion on this 
military operation alone. We have invested over $26 billion in 
training and equipping the Afghan national army. And although 
we are training more of those soldiers, I don't see that much 
progress with respect to stability or safety in the country.
    Because why is it from--it almost seems like this war is 
ultimately about who can outlast whom. And I think that we are 
sacrificing a lot of lives and wasting a lot of our resources 
over there.
    So I would really like to ask the question that former 
Chairman Shelton asked last year, and that is: What does 
success look like in Afghanistan?
    General Petraeus. Well, thanks very much, Congresswoman.
    Success in Afghanistan is a country that can secure and 
govern itself and in so doing, prevent the reestablishment of 
sanctuaries by Al Qaeda and like-minded groups.
    Clearly, success will include an enduring level of some 
international support--very different in character, very 
different in level, one would think, from that at the present, 
but again I think most countries--you recently had the 
Australian prime minister here. I think she addressed Congress 
and talked about the importance of a commitment beyond 2014, 
given the recognition that Afghanistan, while it is ultimately 
potentially very wealthy, certainly is not in that situation 
right now.
    Ms. Sanchez. General, with respect to that, there are 
currently 47 countries who are in this coalition with respect 
to Afghanistan. I know that we have gone from April and 2009 
where we had 39,000 American troops there, and we now have over 
100,000 in Afghanistan.
    But it seems to me like some of the others, like Poland's 
2,600 troops and Canada's 2,800 troops are scheduled to pull 
those out before the end of this year, and Italy and Germany 
just recently announced that they intend to begin withdrawals, 
and we--of their troops.
    And we, or President Obama has committed when he did the 
surge that even though he grew the number of troops in 
Afghanistan from 39,000 to over 100,000, that is almost 
doubling or tripling it, that he would start to withdraw in 
this year also. And somehow, mission-creep has gotten into this 
thing and now we are at 2014.
    The other day, I can't remember who--Gates or somebody 
said, or maybe it was the Vice President--we would be in there 
with combat troops past 2014.
    So, you know, we keep coming back to this fragile and 
reversible. We are making gains, but it is fragile and 
reversible. How long do you think our allies stick with us with 
that? How long do you think the American people stick with 
this? How much past 2014 will this take, in your opinion, 
conditions on the ground?
    Because it seems to me like we could be here in 2019, and 
we would still be in the same place and you would be coming 
before us--maybe not you; maybe somebody else, if you have had 
enough of it.
    Fragile and reversible--I mean, what does that really mean, 
General?
    General Petraeus. I could never have enough of this.
    [Laughter.]
    First of all, again, Canada actually is indeed going to 
move its combat forces out of the Kandahar area, but it has 
plans, as it has announced, to reinvest a substantial number of 
those in the train-and-equip mission, which is actually quite 
important because of course----
    Ms. Sanchez. Yes, train and equip, train and equip. 
Everybody wants to train and equip. We have spent a lot of 
money on train and equip, but nobody wants to do the hard 
fighting.
    General Petraeus. Well, we are also short 750 troops in the 
train-and-equip mission. And so these are critical trainers. 
And again, if trainers are the key--the ticket to transition, 
as the NATO Secretary General has stated, then it means a great 
deal if Canada fills a substantial number of the 750 trainer 
shortfall that we currently do face.
    Ms. Sanchez. Let me ask you, because I have run out of time 
here--corruption. I mean, I have been at this corruption thing 
for a while now, and understand that in fact there was just a 
long-time observer who noted that it is no longer enough to say 
that corruption permeates the Afghan state. Corruption by and 
large is the Afghan state. The Afghan government does not so 
much serve the people as it preys on them.
    What are we doing about that? I just--I have somebody who 
is close to you out there who is telling me everybody is on the 
take out there.
    General Petraeus. Well, actually, we would welcome the 
opportunity to have Brigadier General McMaster brief you on 
what we are doing with the Task Force Shafafiyat, which is one 
of the initiatives that I launched a couple of months after 
taking command. He is working with the Afghan staff of the 
National Security Council. He and I have briefed President 
Karzai now 3 or 4 times. It was after one of those, as I 
mentioned, that President Karzai, on the spot, fired the Afghan 
surgeon general and hung with that despite some political 
support for that individual, despite his absolute failure and 
criminal activity in not meeting his sacred obligation to 
wounded warriors.
    So we would welcome, again, that opportunity. Or, if he is 
back on mid-tour leave or so, or I would do a VTC [video 
teleconference] with you to lay out--because there is a great 
deal of effort in that regard.
    There is also a considerable effort to determine that our 
money is not part of the problem. And, as part of that, we have 
debarred nine contractors, for example. There are dozens more 
that are under suspension to make sure that, indeed, if money 
is ammunition, as the counterinsurgency guidance states, that--
as the counterinsurgency contracting guidance states, it needs 
to get into the right hands.
    But we would welcome the opportunity to lay that out for 
you in detail.
    Ms. Sanchez. Thank you, Madam Secretary, for your service.
    And thank you, General, for your service to our country.
    General Petraeus. Thank you.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    General, thank you for being here. We know that you are not 
just a good soldier, you are a great soldier. And that is not 
to fluff, that is just factual.
    And, Madam Secretary, we know how hard you work, and that 
your heart is for the best interest of this country.
    General, you did mention that the gains we have had over 
the last decade are now fragile and reversible, but we have got 
the right inputs; we are headed in the right direction.
    But, you know, for the last decade, everybody that sat 
where you have sat has told us basically the same thing: We 
think we have got it right.
    So we have to hope you are right, but realize the 
possibility maybe we are wrong.
    Madam Secretary, you also mentioned something that was 
accurate. You said we lost our focus on Afghanistan. But that 
can be a little misleading to some people who just hear it 
because is seems to suggest that maybe we went to sleep or we 
weren't paying attention.
    The reality, as you know--and I know you have said this 
before--is we can't focus everywhere. We have to pick our 
priorities, and we have to focus. And we moved our focus to 
Iraq. We had a pretty successful situation there. We came back 
to Afghanistan.
    But there are those who would say that, based on our focus 
in Afghanistan, we are now taking our focus off of other areas. 
Some would say South America, and we see the rise of drug 
cartels there. Some would say the Pacific, and we are watching 
the anti-access, denial strategies of the Chinese, where we 
still have no concept to deal with that.
    We are seeing an increased modernization in the military of 
the Chinese, with cyber attacks and space attacks for which we 
don't seem to be focusing. We have cut out our F-22s, while we 
watch the Russians increase their production of their PAK FAs 
[Prospective Airborne Complex of Frontline Aviation] and their 
J-20s, and so, some would argue we are not focusing on air 
superiority.
    We stopped focusing on jointness as much as we had, doing 
away with the Joint Forces Command.
    We have ship repair shortfalls of $567 million, and some 
would say we are risking a reduction in service life of our 
fleet. And many of us feel that our lack of focus on 
shipbuilding could cause the Chinese navy to outnumber our 
Navy.
    Because both of you have lived with this so long, help me 
to articulate the priorities of why it is important that we 
continue that focus in Afghanistan, knowing all the things that 
we are accomplishing in Afghanistan.
    But why is it important we continue that focus, even if it 
means taking our focus off of some of these other areas? And, 
if so, how long can we afford to do that?
    Secretary Flournoy. Let me just start out, and I know 
General Petraeus wants to add.
    First of all, I would say that we are certainly focused on 
Afghanistan because we do have vital interests at stake. The 
core goal of disrupting, dismantling, defeating Al Qaeda, 
denying them safe haven is absolutely essential. We have to 
achieve that, not only in terms of where the bulk of Al Qaeda 
senior leadership reside, but also looking to their affiliates 
around the world.
    And I would say we have not taken our focus off the broader 
war against Al Qaeda, which is global in its dimensions, not 
just in Afghanistan and Pakistan.
    But I would also tell you that, you know, Secretary Gates 
has very clearly enunciated a strategy that says, first and 
foremost, we do have to prevail in the wars we are in, given 
what is at stake, but we also have to invest in preventing and 
deterring conflicts elsewhere, and we have to prepare for the 
future.
    So I would assure you, with the work that the Air Force and 
the Navy are doing on air-sea battle, that our technologists 
are doing in terms of science, technology, research, 
development, we are focused on the anti-access, area denial 
problem like a laser.
    And you can look at our investment streams to track that. 
You can look at the efficiencies effort that has pulled money 
out of unnecessary overhead and plowed it back into the 
shipbuilding program and elsewhere.
    So I would argue we haven't lost our focus on those other 
priorities. But obviously we have got, given the stakes 
involved, the lives on the line, we have to maintain a focus on 
Afghanistan, as well.
    General Petraeus. And, if I could, Congressman, first of 
all, I would really go back to September 2005, when I was asked 
to do an assessment in Afghanistan on the way home from a 
second tour in Iraq, when I stood up the train-and-equip 
mission there.
    And after doing that assessment at the request of the 
Secretary of Defense, I went back and briefed him in the 
Pentagon. And this is when Afghanistan was seen as the ``war we 
were winning.''
    And I said, ``Mr. Secretary, with all due respect, this is 
going to be the longest campaign in the long war, for all the 
following reasons.'' And it had to do with the damage of 30 
years of war, the lack of human capital, the lack of 
infrastructure, the illiteracy rates, all of the issues that we 
have been grappling with, and I think have come into much 
higher relief since that time, as we have focused more on that.
    Over 2 years ago--2\1/2\ years ago, when I took command of 
Central Command and focused and did an assessment of 
Afghanistan, I concluded that we did not have the inputs right. 
And I stated that at that time, and I am on the record at 
various times as having said that.
    Therefore, the gains really are the gains of the past year. 
There may have been points along the way, up until 2005, maybe 
even a bit beyond that, where we thought as if things were 
headed in the right direction, but not recognizing that the 
Taliban were coming back.
    But our assessment certainly, retrospectively, would be 
that the Taliban have had the momentum in the country since at 
least 2005. There are areas in that country that we didn't 
realize, until we went in and took them away from the Taliban, 
how long they had been there and how much infrastructure they 
had established there.
    Now, with respect to, again, taking the focus off other 
areas, as a former geographic combatant commander, I would 
affirm that I think we can juggle more than one ball at a time. 
I think we can keep a lot of plates spinning at one time.
    We might feel like the guy at the circus who is racing 
around doing that, but we certainly have that capability, even 
as we, rightly, as the Secretary and the Under Secretary have 
noted, do everything that we can to win the wars we have got, 
which is of enormous importance.
    Again, why Afghanistan? Because it is the home to Al 
Qaeda's senior leadership. It has been for decades. It has to 
be disrupted, dismantled, defeated. And it has some affiliates 
there with whom it has symbiotic relationships, other 
organizations that are wannabe transnational extremists as well 
and cannot be allowed to become that.
    Mr. Forbes. Thank you, General.
    Thank you, Madam Secretary.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    General Petraeus, a few numbers--about--there are about 
305,000--our goal is about 305,000 ANSF in Afghanistan?
    General Petraeus. For October this year, it is 305.4 
thousand I think is roughly what it is.
    Mr. Larsen. Okay. All right. And we are short 750 trainers 
to get to that number?
    General Petraeus. Well, no, I wouldn't--it is not quite a 
cause and effect. The 750 in many cases are for expanding the 
training capacity that actually develops enablers. Some of 
those are in that 305,000; some of them are in the projections 
beyond that.
    Mr. Larsen. Okay. So I am getting to the comments from 
Minister of Defense Wardak, who, and other reports, saying that 
some folks want to push that to 378,000. So, if we are not 
there generally with--to get to 305,000 with what we have, what 
is your assessment of getting to 378,000 any time soon with 
what we don't have?
    General Petraeus. Well, I think that we will figure out how 
to do it at the end of the day, even if there is a necessity of 
diverting perhaps some additional U.S. forces, and they would 
be a mix of combat, combat service--or combat support and 
combat service support. Because, again, now we are increasingly 
doing enablers, not just----
    Mr. Larsen. Right.
    General Petraeus [continuing]. Combat forces. But perhaps 
hiring more contract trainers, which is something we don't want 
to do, we want to draw those numbers down, and then accelerate 
the so-called train-the-trainer, the Afghan trainer program, 
which is also now starting to bear dividends.
    Mr. Larsen. Is this an ISAF decision or U.S. Forces-
Afghanistan decision regarding the training? Is that a United 
States----
    General Petraeus. Well, the NATO Training Mission-
Afghanistan is an ISAF organization, but it is a dual-hatted 
command, just as is ISAF, with the Afghan Security Forces Fund 
flowing to the Combined Security Transition Command-
Afghanistan----
    Mr. Larsen. Right.
    General Petraeus [continuing]. A commander who is also the 
NTM-A [NATO Training Mission-Afghanistan] commander.
    Mr. Larsen. So, then, has that decision been made, to move 
to 378,000?
    General Petraeus. It has not. There is a recommendation 
that has gone forward. It was developed in very close 
consultation with the minister of interior, minister of defense 
of Afghanistan, was ultimately approved by President Karzai.
    It is actually a recommendation of 352,000 as a floor, and 
if there are certain reforms that continue--because the Afghans 
are very much working on reforms in the area of recruiting, 
retention and reduction of attrition, as well as leader 
development and some other institutional development areas--if 
those continue, then there are--essentially are incentives. So 
if you are doing this well, then we are going to keep and go to 
378,000. And that is what has gone forward.
    That has the endorsement of General Mattis and the 
Secretary, but it also has a recognition from all of us that 
there is a sustainability issue.
    Mr. Larsen. Right.
    General Petraeus. And that is what policymakers have to 
grapple with.
    Again, it is my job to state requirements and to do so 
forthrightly, and that is what I have tried to do. It is the 
job of others, then, to determine whether those requirements 
can be adequately resourced and what the long-term sustainment 
implications are, as well.
    Mr. Larsen. And that is where we ended up--right back to 
us. Right. Yes. Here in Congress.
    So, Secretary Flournoy, I don't think that you are--I don't 
think the Administration's talking enough about the long-term 
relationship that we will have with Afghanistan.
    It is only--you know, in recent memory, there is only one 
country that we have been involved with and that we then left 
alone, and that was Afghanistan. And so I think it is important 
to put this strategic relationship in context.
    And I want you to talk, a little bit, about specifically 
what this Administration and what the Karzai Administration 
believes would be the elements of a relationship that sees a 
decreasing military footprint and an increasing diplomatic and 
economic relationship with Afghanistan.
    Because, talking with folks back home, you know, they are 
saying get out of Afghanistan. And the response is, well, do 
you mean literally America, the United States of America has no 
relationship with Afghanistan at all?
    Because that is what people hear. And I think we need to be 
telling folks, we are not saying that; no one is saying that, 
that there is a relationship that we are going to have with 
Afghanistan that is strategic.
    But can you give us, in 26 seconds, what those details 
might look like?
    And perhaps the Chairman will be kind enough to give you 
some forbearance.
    Secretary Flournoy. Well, I think, as we begin the 
transition process and the cutting the front edge of the 
responsible drawdown, it is very important to clarify publicly 
and with the Afghans what a strategic partnership entails, what 
this enduring commitment involves.
    I think, first of all, you could expect to have a security 
cooperation or assistance component, a long-term commitment to 
helping the ANSF continue to grow and develop and build in 
capability.
    There will be an economic dimension, what kind of trade 
relations; what kind of economic assistance; what kind of 
collaboration on that front?
    There will be a political and diplomatic component, a 
people-to-people component. If you look at the strategic 
framework agreement that we came up with in Iraq as a model, it 
is that kind of thing, laying out the elements of a commitment 
on both sides to a multifaceted interaction between the two 
countries over time.
    The Chairman. The chair exercises great forbearance, but if 
members want to use the 5 minutes to prepare their question----
    [Laughter.]
    I will ask the witnesses to respond on the record, in 
deference to all the other members that are sitting here that 
have questions to ask.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, and I will try to 
conform to the standard. And it will be difficult.
    But, first of all, Secretary Flournoy, I want to thank you 
for your message on behalf of the Administration--and you 
restated it--and that is we are not abandoning Afghanistan, 
that there is an enduring partnership, strategic partnership, 
that I interpret that we will stop terrorism there to protect 
American families at home.
    I find this reassuring to the people of Afghanistan. I know 
that it is appreciated by our allies and our troops serving 
there. And I hope it is a warning to our enemies around the 
world that we will not abandon the people of Afghanistan.
    And, General Petraeus, it is an honor to be back with you. 
I always like to point out that I am very grateful personally. 
I have had two sons serve under your command in Afghanistan. I 
am very grateful my former National Guard unit, the 218th 
Brigade--the people of South Carolina are very proud that they 
were there, 1,600 troops, the largest deployment of troops 
since World War II in Afghanistan to help build the Afghan army 
and police.
    And you trained our new adjutant general, Bill Livingston, 
very well. And so we are very grateful.
    I know your success in Iraq as the co-chair of the Victory 
in Iraq Caucus. I appreciate the success of the surge. And then 
I appreciate the President accepting your recommendations for a 
surge in Afghanistan.
    And in my most recent visit there, I was so grateful to 
come back to the House floor and point out that the success of 
the surge is truly to encourage the people of Afghanistan, 
their police and their army units. You have gained 70,000 more 
police and army personnel, with great leaders like General 
Wardak.
    And the American people need to know that this is also 
assisting with literacy, marksmanship. This is real-world 
progress.
    With that, my question really is related to our longtime 
ally Pakistan. Sadly, the country has been under assault by 
natural disasters, political instability. What is the status of 
our military relationship with our longtime ally?
    General Petraeus. Well, first of all, Congressman, the 
people of South Carolina should indeed be very proud of their 
brigade, of the 218th. And it was great to have Bob at CENTCOM 
[United States Central Command] and wonderful to see him now 
become the A.G. [Adjutant General] of the state.
    With respect to Pakistan, clearly it has endured 
innumerable challenges in recent years, terrible natural 
disasters, a spread of the Tehrik-i-Taliban Pakistani that 
forced the initiation, some 2 years ago, of very tough 
fighting, very impressive counterinsurgency operations in which 
the Pakistanis have lost thousands of soldiers and also 
thousands of civilians.
    The fact is that the cooperation between Pakistan, the 
Afghan forces and ISAF forces has never been better. We have 
had a number of meetings, literally just in the last couple of 
months, to coordinate operations where Pakistan is continuing 
its offensive against the Tehrik-i-Taliban Pakistani. And we 
will conduct complementary operations on our side, on the 
Afghan side of the border.
    Again, there is also no question about the gains that 
Pakistan has made against the Tehrik-i-Taliban Pakistani and 
the TNSM [Tehreek-e-Nafaz-e-Shariat-e-Mohammadi] and some 
affiliates. But there is also no question about the very 
worrying developments, in terms of extremist activity in 
Pakistan with the assassination of the governor of the Punjab 
and the reaction to that, which was troubling to many 
Pakistanis, and then more recently the assassination of the 
minister of minorities.
    Beyond that, the Pakistanis clearly recognize--and I have 
had many conversations with their army leadership--that more 
needs to be done against groups that reside in various areas of 
Pakistan, in north Waziristan, in Baluchistan, that are causing 
significant security challenges for their neighbor and their 
partner Afghanistan, while also being fair to recognize that 
the Pakistanis would rightly state that they have put a lot of 
short sticks into a lot of hornets' nests in recent years, and 
they absolutely have to consolidate some of their gains and 
solidify their gains and build on them before they can take on 
major new fights.
    Nonetheless, there is a clear recognition among all of the 
importance of their doing that at an appropriate moment.
    And indeed the U.S. relationship with them, which has, I 
think it is fair to say, sustained a degree of tension in 
recent weeks in particular, as a result of the case involving 
the State Department employee, but hopefully we can move 
forward, take the rearview mirror off the bus and resume the 
very cooperative activities that have characterized the 
relationship in the past.
    The Chairman. Thank you.
    We will have one more, Ms. Bordallo. And then we will call 
a 5-minute recess, and then we will begin with Mr. Turner.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Madam Secretary and General Petraeus, it is--thank you for 
appearing today, and it is nice to see you again.
    To begin, representing Guam, the closest neighbor of Japan, 
I wish to extend our prayers and condolences to the people of 
Japan and that they may recover from this horrendous disaster.
    I have, as you both know, traveled extensively on CODELs 
through Afghanistan and Central Asia, since 2003, I might add, 
where I met you, General.
    And I have seen success. I want to make--place that in the 
record. Just 3 weeks ago, I traveled with the Wilson CODEL. It 
was a very factual CODEL. And I thank you, General, for the 
very informative brief that you gave all of us.
    Now, my first question is to the Secretary. I believe one 
of the keys to advancing democracy in Afghanistan is to educate 
the women.
    Madam Secretary, you touch on this in your testimony 
briefly in the formation of the Afghan consultative peace 
jirga. My question for you is what other measures are coalition 
forces involved in to encourage the advancement of women's 
rights?
    Secretary Flournoy. Well, I think there--writ large, there 
are a number of U.S. policies and programs designed to, sort 
of, secure and enhance the role of women in Afghan society. 
There are a number of State Department programs, USAID 
programs. Every time Secretary Clinton goes, she gives great 
prominence to these.
    But in terms of the ISAF forces--and I know General 
Petraeus may want to speak to this--one of the things that--one 
of the innovations that has occurred is using our own female 
soldiers, Marines--there are troopers--in female engagement 
teams, the Lioness Program, where they are able to actually go 
into Afghan villages and access and engage half the population 
that otherwise would be off-limits to us.
    And so they are working, face to face, with Afghan women, 
at the local level, trying to ensure their voice is heard, that 
they are part of the process of transforming an area from 
insecurity to security and then, you know, in terms of being 
participants in the broader governance and so forth.
    So that is happening at that local level all the time.
    Ms. Bordallo. Thank you. Thank you.
    Madam Secretary, I also----
    General Petraeus. Maybe I could add, on that, actually----
    Ms. Bordallo. I am going to get to you, General----
    General Petraeus. Okay.
    Ms. Bordallo. I have another question for you, but I will 
get to you. I tended to--I was with Speaker Pelosi on a CODEL, 
and we--it was strictly women meeting women, both in military 
and the Afghan government. And they are very vocal, and they 
spoke about security. That was the main thing. They wanted the 
U.S. to provide security for them so they can go out and teach 
and meet with the Afghan people.
    General, to what extent, if any, must corruptive behavior 
by those in government in Afghanistan be countered in order to 
support stability?
    What exactly is needed from President Karzai, in order for 
corruption in the Afghan system to be countered successfully?
    During a dinner with Ambassador Eikenberry on this recent 
CODEL, we understood, from the parliament members who attended 
the dinner, that this corruption in the government still 
exists. And I know this is a little out of your realm, but I 
think that politics and the military are commingled in 
Afghanistan.
    So if you could help us in that? I understand there isn't 
even a speaker yet, appointed in the parliament. Is that 
correct?
    General Petraeus. No, actually, there was a speaker elected 
a couple of weeks ago and the committee members have been being 
selected as well more recently.
    In fact, as I noted to the SASC yesterday, I think there 
are 10 percent more women in the Afghan parliament than there 
are in the U.S. Congress.
    Now, in part because there is a constitutional requirement 
for certain levels. But it does reflect, I think, a degree of 
seriousness about opportunities for women, which certainly in a 
very, very conservative society there has to be constant 
attention to that.
    I would point out, I think the most important advance for 
women, though, is actually in the area of access to education. 
It is well known that under the Taliban, during which there 
were less than 1 million in school at all, in any case, in 
elementary school and so forth, now there are over--this year, 
we believe, there will be 8.2 million, according to the 
minister of education, and somewhere over 30, 35 percent, we 
believe, will actually be female students.
    So this is quite an enormous step forward for them and a 
great opportunity.
    There are actually Afghan female generals.
    Ms. Bordallo. Yes.
    General Petraeus. There are growing numbers of Afghan 
female police and soldiers.
    Don't get me wrong, there are all kinds of barriers, 
institutional norms and others that have to be confronted in 
some of these areas, but they are proving themselves and 
showing to be of enormous value in these operations. Indeed, I 
think it is Afghan commanders that increasingly recognize the 
need for that.
    And then finally the corruption that has be dealt with is 
clearly that which threatens the institutions to which we will 
transition, have to transition, and that corruption which 
completely undermines the legitimacy of the governmental 
organizations which have to earn the support of the people.
    Ms. Bordallo. Thank you very much, General.
    Thank you, Mr. Chairman.
    The Chairman. The committee will stand in recess. We will 
reconvene at 6 minutes after 12.
    [Recess.]
    The Chairman. Committee will come to order.
    Mr. Turner is recognized for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    I want to thank both of you for being here today and for 
your leadership on such an important issue as Afghanistan. We 
all know that as we look at the threats to the United States, 
that Afghanistan of course was the source of the attack from 9/
11, and we appreciate that it is a security environment that 
must be secured for the United States and for--as we go 
forward.
    General, you and I actually have had several opportunities 
to talk about Afghanistan. I was last in Afghanistan as you had 
taken the leadership position there. And my issue that I raise 
just about every time is the drug trade. We see--excuse me, I 
have got a problem with this chair. Switch chairs here.
    Everyone identifies the drug trade as a source for 
corruption, funding the Taliban, funding the insurgency, 
causing instability in government; also suppressing the issue 
of the transition of their economy to legal production and to a 
stable economy from which then Afghanistan could grow.
    General, I have held up several times this chart, which I 
am going to show you again. This shows the historical 
production of poppy in Afghanistan going back to 1991. And what 
I like about this chart--CRS [the Congressional Research 
Service] did this--is that it shows that we actually have, as 
we were looking at responding with a troop surge, we had an 
opium production surge.
    If you fold this chart in half you can see that from this 
side you have the historical levels of production, and then you 
have these 4 years, which are really the last 4 years, that are 
spikes in opium production.
    You indicated that really Afghanistan had turned since 
2005, and you can see from the chart that 2006 is actually the 
first year that opium production spiked. It is almost double 
the historical levels of production. And I know now that in 
2010 there was a reduction as a result of disease among the 
crops. But I don't think people are projecting that it is going 
to go back to half again.
    We all know that the list, the to-do list of what to do 
with this includes eradication, attacking the labs, attacking 
the cash, attacking the leaders and the leadership, looking for 
alternate crops and supply routes.
    But, General, nonetheless, even though that remains the to-
do list, I am not confident that we are being as effective as 
we need to be, knowing that this goes directly to the heart of 
really what we are facing.
    I looked at your written testimony. And, General, you do 
mention, in Marjah, the turnaround there, and that it was prior 
affected by the narcotics trade. But I don't see in your 
testimony really the drug trade being identified as a major 
initiative that we need to attack and address.
    We looked at prior testimony that has come--that this 
committee has heard. We heard in 2006, General James Jones 
stated that, ``The Achilles heel of Afghanistan is the 
narcotics problem. I think the uncontrolled rise of the spread 
of narcotics, the business that it brings in, the money that it 
generates is being used to fund the insurgency, the criminal 
elements, anything to bring chaos and disorder.''
    General, are we doing better? And what do we need to do? 
This is obviously a time when we try to look to how we bring 
resources to bear to what you are undertaking.
    General Petraeus. Well, thanks. In fact, we are doing quite 
a bit better. Over the last 6 months, for example, we assessed 
that we have found and destroyed some three times or so the 
weight of the illegal narcotics products of various types, and 
also a tax on labs and so on.
    The fact is that I think your slide, and we probably should 
help you update it because, again, it did come down this past 
year now and it appears as it is going to come down further 
this year. But what it shows is that insecurity and Taliban 
control lead to production of poppy and therefore the 
flourishing of the illegal narcotics industry, which provides 
somewhere around at least a third of the funding for the 
Taliban movement. The other elements coming from illegal 
activities like kidnapping, extortion and so forth, and then 
outside remittances, donations.
    If you look at slide 12, in fact, in our packet there, you 
will see what happens after ISAF and Afghan forces control an 
area for a period. And we can work through the process of crop 
substitution, of providing wheat seed and other alternative 
crops, rather than having to resort to the poppy, which in many 
cases the Taliban forces the people to plant and to harvest 
because, again, that provides substantial revenue for them.
    So there has been considerably more emphasis on this over 
the course of the last 6 months. Again, as the slide shows, 
Nawa was an area of very heavy concentration of poppy 
production and it has become an area now of virtually no poppy 
production. And it is not just the blight that has led to a 
reduction in poppy cultivation, but also literally just to less 
cultivation as well.
    So again, I think there is much more attention on this than 
there has been in the past. It was fortuitous that you visited 
when you did and showed me the slide that you did when you did, 
because it indeed helped. It was a catalyst for a pretty 
substantial examination that we did of this problem. Thank you.
    Mr. Turner. Thank you, General.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And I want to thank both witnesses for their outstanding 
testimony and service.
    General, in the slide presentation, the last slide which 
talks about strategic risks, one of the clouds--storm clouds--
here was the inadequate State-USAID resourcing. You know, you 
gave a very, I think, blunt and honest answer earlier today 
about the resolution that we are going to be voting on 
tomorrow.
    And I want to first of all thank you for your answer to 
Senator Graham about your concerns about the budget that came 
out of the House in terms of the cuts to USAID and to the State 
Department in general.
    One of the frustrations for a lot of us during that debate 
was that the--it was framed as cutting discretionary domestic 
spending, but in fact obviously the State Department and USAID 
were brought into those cuts. And just to be very clear on the 
record here, I mean in 2010 USAID was funded at a level of 
$1.42 billion. H.R. [House Resolution] 1 cut that to $1.3 
billion, which was about a 14 percent reduction from what the 
President requested for 2011.
    You know, for a lot of people, though, USAID is just an 
acronym. It just doesn't mean anything to the average citizen 
out there. And I am just wondering if you could maybe, you 
know, fill in that--what that means in terms of the work that 
USAID is doing in Afghanistan and how integral it is to a 
successful diplomatic and military strategy, and the quicker we 
can pivot away from a military footprint in that country.
    General Petraeus. Well, thanks very much, Congressman. In 
fact, I sent a letter to Senator Graham in response to a 
question that he asked of me, and it was put on the record 
yesterday in the SASC. And it might be worth sharing, in fact, 
with members of this committee.
    The bottom line, though, in that letter was that I stated 
that this category of funding, which is so essential to 
building on the hard-fought security gains that our troops 
sacrificed so much to achieve, this category is really a 
national security funding issue, not just an issue of foreign 
assistance or some other element.
    Again, without that construction of governance and 
development on the foundation of security that is achieved by 
our men and women in uniform, you cannot consolidate your 
gains. You can't solidify and, indeed, build on them, as we 
say.
    Mr. Courtney. Another slide which was submitted, I think it 
was slide 13, which were some photographs of school openings, 
and there was a rather, well, a ``shooting a bullet into our 
enemy's heart,'' which is a pretty vivid metaphor in the 
context of showing kids lining up for school.
    But again, it shows the really strong connection between--
and that may have been a CERP [Commanders' Emergency Response 
Program] project, but nonetheless, USAID is all about school 
construction. And the fact is that that is how we win with that 
type of investment.
    General Petraeus. Absolutely. This particular district 
where the school is being opened, and it is the district 
governor, now, mind you, not us. He is the one saying that this 
is akin to shooting a bullet into our enemy's heart. This 
district is Mullah Omar's hometown. And needless to say, that 
school was not open under the Taliban.
    In Marjah, there were zero schools open under the Taliban. 
That was a nexus of the illegal narcotics industry and the 
Taliban command and control. There are now five schools open, 
including a high school for the first time in we think almost a 
decade, and also five others that are under construction.
    Now, it may well be that these are CERP funded, but the 
idea is that this is--we all work together. And as you know, 
when it comes to the Afghan infrastructure fund, that is 
jointly administered between the military and State/USAID, and 
I don't know if the Secretary wants to mention something on 
that.
    Secretary Flournoy. I would just say that at this 
particular point in the campaign, when we are actually getting 
traction on the security dimension, we are creating space for 
those things to happen, as General Petraeus said. You know, it 
is even more important now that we maintain, if not increase, 
the funding for some of these critical--the early stabilization 
programs.
    As soon as you clear an area, OTI, the Office of Transition 
Initiatives, as part of USAID, goes in and immediately starts 
programs to engage the community. Agricultural development, 
which is the heart of the Afghan economy; capacity building so 
that, you know, Afghans will be more able to do for themselves 
over time; dispute resolution, which goes at the heart of what 
the Taliban, you know, sort of really competes directly with 
the Taliban and the role it has tried to carve out for itself.
    These are critical programs. And if we focus--we only fund 
the military piece, you can't actually get across the goal line 
without State and USAID assistance as well.
    Mr. Courtney. Thank you.
    The Chairman. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, General, for being here, for 
your testimony, for answering the questions.
    Thank you, General, for hosting us just a few weeks ago. 
The Chairman, Mr. Reyes and I were out and had terrific 
briefings, a great chance to visit. We were concerned by some 
of the briefings we got on corruption, but uplifted by many 
others.
    Thank you also for your son, and please convey to 
Lieutenant Petraeus well done and thank you, certainly from me, 
and I suspect from the whole--from the whole committee.
    It was surprising, almost shocking, that we could go to 
Marjah; no body armor, walk through the market, talk to 
proprietors, go to a school opening, cut a ribbon for opening a 
school for 500 kids, 10 teachers, but tremendous, tremendous 
progress.
    So Mr. Forbes said that we have to hope that you are right 
in your estimation of progress and anticipation of the Afghans 
taking over responsibility. And based on a lot of what we saw, 
it appears that you are right. There is certainly progress 
being made.
    And one of the places where we are definitely getting it 
right is the effort that General Caldwell and his folks have 
undertaken and are doing in training the new Afghan national 
security forces. The police particularly seem to be--were 
making progress where we didn't think it might even be possible 
to make progress a couple of years ago.
    And the brilliant idea of including literacy training in a 
country where you have got--I think they said these recruits 
that are coming in, 85 percent can't read or write at all. They 
can't even read their own name. And so now this effort to get 
them up to what we are calling the first grade level, ``see 
Spot run,'' I think is going to pay tremendous, tremendous 
dividends in their capability, the chance for professionalism. 
I was just hugely heartened by that.
    And so when you look at the improved quality of the new 
members of the Afghan national security force, with this change 
in how we train them, I want to go back to Mr. Larsen's 
question about the 378,000 total end-strength, if you will, of 
ANSF in October, 2012, I think is the date that is being talked 
about.
    And so I have just a really simple question. Do you support 
that number? And I know you put 350 and some enablers, but 
overall, are you supporting that goal? And do you think we can 
do it?
    General Petraeus. I support it if and only if, again, our 
Afghan security force partners meet the reform goals on which 
they are already making progress. So they would need to 
continue progress in the areas of recruiting, retention and 
then reduction of attrition, as well as a variety of different 
leader-development initiatives that are critical. Indeed, 
without those, then it is not worth continuing it. If they do 
that, that is a very tangible recognition of and, in a sense, a 
reward for--an incentive for meeting the very important 
benchmarks for the continued development of quality, as well as 
quantity.
    Whether they can do it will depend, in fact, on reduction 
of attrition, in particular. They have been ahead of glide-path 
so far in their growth--in meeting their growth goals. But as 
this increases, of course, it becomes increasingly challenging. 
So we will have to see how they do, again, in meeting the 
attrition reduction goals.
    Mr. Kline. Let me ask it this way.
    General Petraeus. The answer is yes.
    Mr. Kline. Okay. You think they will do it. All right. 
Thank you very much.
    Mr. Chairman, I yield back.
    We like nuanced answers in today's modern military.
    The Chairman. Thank you.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair.
    Madam Secretary, General Petraeus, thank you for your 
service. Thank you for being here today. It is always good to 
see you at these hearings, and in the past in Afghanistan. And 
hopefully in the future as well, General, I will be able to see 
you in Afghanistan at some point.
    At the outset, I do want to note that the Iowa National 
Guard currently has roughly 3,000 soldiers deployed in 
Afghanistan. That is the largest for our state since World War 
II. And you were kind enough to assent to a video interview 
with my colleague Bruce Braley when he was there most recently 
with the--with a CODEL.
    The 2nd Brigade Combat Team did deploy last summer and is 
operating in, I believe, five provinces throughout R.C.-East 
[Regional Command East]. The 734th Agribusiness Development 
Team deployed a few months before that.
    And thank you, Madam Secretary, for your comments about 
agriculture. I am really proud of the Iowa team that is there 
working in the agriculture sector. I think they are really 
doing a great job, the ADT [Agribusiness Development Team].
    It is not Iowa, that is for sure. Having been there, I have 
a sense of what agriculture is like in Afghanistan. But I think 
it is an essential component to the strategy.
    And I think it is safe to say that all Iowans are very 
proud of our National Guard and their activities there.
    What I want to talk a little bit about is what we mean by 
legitimate governance, what we mean by successful governance 
and what we mean by successful development.
    And I will just preface that a little bit by saying that 
before I became a congressman, I traveled overseas principally 
to the so-called Third World a number of times. I taught 
comparative politics. I know that the word ``nation-building'' 
has not been part of the vocabulary of this Administration for 
some time.
    But I am one of those who has a lot of concerns about 
nation building, and I understand why folks aren't calling what 
we are doing necessarily nation building.
    But when we talk about defining success as Afghanistan 
being secure and able to govern itself, and part of that being 
able to create a legitimate governance system and also being 
able to engage in successful development in a country which I 
think, and correct me if I am wrong, is still about the fourth 
poorest country in the world--extremely poor. Having been 
there, I am very aware of the lack of infrastructure, all the 
problems that they face.
    I guess my question is: How do we define things like 
provision of basic services, for example, when we talk about 
governance?
    Madam Secretary, if you would? Thank you.
    Secretary Flournoy. Well, I think that, you know, when you 
look at governance, we start bottom up, at the local level, to 
say what are the essential components? Things like a shura--a 
functional shura, that is representative of the population. A 
decent district governor. A decent, noncorrupt, nonpredatory 
police chief. Some funds available for basic development 
programs, whether it is coming from Kabul or coming from the 
international community.
    There are some basic building blocks that, as you put them 
in place, really start to make a difference at the local level.
    Afghanistan is going to be a poor country for decades. The 
economic development timeline is very, very long. And that is 
part of the long-term relationship that we will--we and others 
in the international community will have with Afghanistan. This 
will be something we work on with them for many, many years.
    But the key--what we are focused on right now are the key 
governance and development pieces that are absolutely essential 
to the core goal of getting to the point where Afghanistan can 
take the lead in securing and governing itself, with continued 
help from the international community, but of a nature that 
looks like--more like a traditional long-term assistance 
program.
    Mr. Loebsack. General, do you want to weigh in on that?
    General Petraeus. Well, first of all, you know, I think you 
are right, that nation-building has a bit of a pejorative 
connotation in this town. And--but the fact is that we have 
also gotten away from that a tiny bit because we want to convey 
a sense that we are quite measured in our objectives in 
Afghanistan. We are not trying to build, again, Switzerland in 
that country; we are trying to help Afghanistan achieve what is 
sufficient for Afghanistan.
    So we have measured objectives that are based on a very 
realistic assessment of the challenges that confront us there.
    Among the provision of basic services that I would add to 
what the Secretary described, and partly embodied in the shura 
council, is the issue of dispute resolution. This is an area 
where the Taliban can compete with local--Afghan local 
governance, if it is not done well.
    Indeed, this is the area in which in Swat Valley, the 
Tehrik-i-Taliban Pakistani was able to play on grievances, 
because of the lack of speedy justice because of the way the 
system was set up there and in the Northwest Frontier province.
    So that is another important component of this. And, again, 
this is all part of achieving that legitimacy in the eyes of 
the people, governance that serves the people, that doesn't 
prey on them, that is transparent and sufficiently, again, 
representative of integrity as well.
    Mr. Loebsack. Well, thanks to both of you.
    And thank you, Mr. Chair.
    The Chairman. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    I thank the witnesses.
    And, General, in particular, I want to--again say I don't 
think any of us on this committee can often enough tell you 
about how much we appreciate your service and the consequent 
sacrifice you and your family are making. The nation owes you a 
great deal of gratitude.
    You touched on this subject in your opening statement, but 
I wanted to be a little bit more specific. One of the commands 
that you have is the Joint Urgent Operational Needs, which is 
for persistent surveillance systems which provide actionable 
intel to decisionmakers to counter IEDs [improvised explosive 
devices] and indirect fire and protection of convoys.
    Do you have enough of these systems? And, if not, how many 
do you need?
    General Petraeus. We do not have enough. There is an urgent 
operational needs statement in, in fact a joint urgent 
operational needs statement, and I will get that to you for the 
record, what the specifics of--by each different category of 
intelligence, surveillance and reconnaissance system.
    [The information referred to can be found in the Appendix 
on page 99.]
    I will tell you that the Secretary of Defense has done an 
incredible job, first, when I was in Iraq as the commander 
there, then in Central Command, and now that I am in 
Afghanistan, in doing everything humanly possible to produce 
this as rapidly as it can come off the assembly line and out of 
industry, as he has done with the MRAP [mine resistant ambush 
protected] altering vehicle and a variety of other items that 
we desperately have needed.
    Mr. Rogers. You mentioned the use of blimps over there, 
along with cameras on poles. The blimps, are they manned or 
unmanned?
    General Petraeus. There is nobody in the blimp, but there 
is a team down at the base that is obviously steering the 
camera and is typically--I forget how many people are actually 
part of that team typically, but--and then that ties into the 
operation center of the unit in whose area it is being 
employed.
    Mr. Rogers. Excellent.
    And the last question I have got, to make things simple for 
a simple fellow from Alabama, is, when you look at the Afghan 
security forces and the way you found them and then the point 
that they are developed now, from a professional skill set 
level, if you consider the way you found them a zero and the 
way you want them when you are gone a 10, where would you say 
they are on that scale in their development?
    General Petraeus. Well, first, with respect, I wouldn't 
want to label where they were a zero. Again, there has been 
enormously hard work there. And the fact that we had not gotten 
the inputs right doesn't mean that there wasn't a tremendous 
amount of productive activity in building institutions, in 
building infrastructure, in building human capital and 
everything else.
    It was just that we hadn't applied enough and in some cases 
didn't have the right constructs, organizations, and 
resourcing.
    But, I mean, there is no question that there has been 
significant improvement in them, again, not just in terms of 
quantity, but also in terms of quality--leader development, 
infrastructure development, and now increasingly the 
development of these critical enablers that are necessary so 
that we don't have to continue to enable them in every single 
category.
    And, again, I would--General Caldwell and his team have 
done magnificent work, first in building the NATO Training 
Mission-Afghanistan, which has been a big part of this, so that 
we have all the NATO countries and NATO ISAF countries engaged, 
not just those that are following the U.S. lead in what used to 
be the CSTC-A [Combined Security Transition Command-
Afghanistan] organization, but now to expand it, as it has.
    And that is particularly useful, because in many cases 
there are skill sets required for trainers that we don't have 
in our inventory. You know, we don't fly MI-17s, we don't fly 
some of the smaller fixed-wing aircraft, we don't use D-30 
howitzers, and yet some of the former Soviet Warsaw Pact 
countries that are now either part of NATO or troop-
contributing nations of ISAF have those skill sets and have 
been very helpful in that regard.
    Mr. Rogers. Thank you very much.
    Mr. Chairman, I yield back.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And thank you, Secretary Flournoy and General Petraeus, for 
your testimony here this morning.
    I opposed President Obama's initial request for 
supplemental funding for the surge of an additional 30,000 
troops because I had questions about our strategy in 
Afghanistan and Pakistan that I felt were unanswered, and did 
not feel comfortable increasing the number of servicemembers 
serving there without answers to those questions.
    I have been there three times now, and I still have strong 
reservations and many unanswered questions. So I am glad you 
are both here and I am glad that the President has carried out 
several very deliberate assessments of the challenges we face.
    I want to congratulate you for establishing a timeline and 
benchmarks to success, which you describe as an Afghanistan 
``that can secure and govern itself.''
    However, I believe this timeline and these benchmarks are 
almost entirely dependent upon the actions of a corrupt central 
government and on the growth in the size and capabilities of 
the Afghan national security forces, both very difficult 
challenges--and you have had many questions about that today.
    General, The Washington Post reported a few weeks ago that 
we have recently made significant gains in Marjah, and you have 
alluded to that today and talked about it, as have others who 
have recently visited. Violence has declined, more civilians 
are cooperating with our forces, and last September's elections 
had a high voter turnout.
    However, this progress required the deployment of 15,000 
soldiers and a full year of fighting to secure a town of less 
than 80,000 people. And we were supposed to be well on our way 
by now to securing Kandahar, a hub of Taliban activity with a 
population of half a million.
    With progress this slow, why should we have any confidence 
you will hue to the timeline with substantial redeployments 
beginning this summer? Why should we believe that the current 
strategy will succeed across the rest of Afghanistan by 2014?
    General Petraeus. Well, first of all, with respect, 
Congresswoman, I think the--number of U.S. Marines that we ever 
had in Marjah was a bit less than 4,500. And we will get you 
the exact number. I think it was a few hundred less than that.
    And the last I saw, I think we are down to around 1,600 
now. So even though we haven't formally commenced transition in 
Marjah, because there are a number of other issues and 
challenges that have to be dealt with before we can get to that 
point, there is no question that we have already been able to 
thin out our forces and have our Afghan partners expand their 
presence and capability.
    That notwithstanding, this is a tough fight. And I don't 
want to diminish the challenges that continue to confront us 
there. But the fact is that we have indeed been able to reduce 
our forces substantially and that we have been able to reinvest 
them, if you will, in other areas further out from the 
population centers and then in other districts where they were 
needed.
    Ms. Tsongas. But, General, nevertheless, it took quite a 
bit longer than you initially anticipated----
    General Petraeus. Not longer than I anticipated, with 
respect, Congresswoman. I think I am on the record talking 
about how long these take. I think it is fair to say that we 
used some rhetoric at that time, like governance in a box, that 
turned out not to be in the box, and that kind of thing was 
unhelpful. And indeed there have been times when we have made 
pronouncements in the past.
    But we have frankly tried very hard on my watch to 
underpromise and overdeliver. In fact, if you look at the 
record in my statements on Zhari and Panjway Districts west of 
Kandahar, and Arghandab and so forth, you will see that we were 
very cautious in our projections of the rate of progress there.
    And, frankly, ultimately, we did actually state that we had 
actually done it a little bit faster than we had anticipated.
    This is hard government work. It is tough fighting in very, 
very difficult conditions, almost like the hedgerows of 
Normandy, in certain respects, in some of these districts. And 
again, I would submit that, on my watch as the commander, that 
I have been very, very circumspect in projections about what it 
is that we will do and in explaining what we have done, and 
that there are a lot of caveats and that what we have tried to 
do is to be as forthright as we possibly could.
    Ms. Tsongas. And nevertheless, these gains are fragile. And 
I think what, as you testified----
    General Petraeus. And that is my statement as well.
    Ms. Tsongas [continuing]. I think what you see here today 
is we have, sort of, a fork in the road, where those who see 
this, the fragility supporting continued investment and those 
who, seeing that fragility, wonder simply how much longer can 
we hew to this
strategy?
    Thank you.
    The Chairman. Thank you. Mr. Conaway.
    Mr. Conaway. David, Michele, thank you all for coming this 
morning.
    David, since you gave a shout-out to the 101st a while ago, 
the Screaming Eagles, my dad served and fought with the 101st 
in Korea, and he was very proud of that affiliation with that 
fine organization.
    We talked a lot about corruption. There is some corruption 
that we can do something about in our supply chains and in our 
care and feeding of our team. As you push into that, give me a 
couple of--let me give you a couple questions on that, about 
connections between U.S. contracting and corruption in 
Afghanistan, as well as what are the barriers that you need to 
identify the malign actors and the systems?
    And what can Congress do to give you either new tools or 
new authorities to deal with things that we can do something 
about when it comes to corruption?
    General Petraeus. Well, first of all, Congressman, it is a 
great question. And Senator Brown, and I think it was Senator 
Ayotte in the SASC have introduced legislation that would be 
quite helpful to us.
    It basically gives us greater authority for more rapid 
termination of contracts when we identify that the contractors 
have been carrying out essentially corrupt practices or 
practices that undermine what it is we are trying to do as 
counterinsurgents. So that would be quite helpful.
    We have also requested some 60 or so individuals with 
special skill sets to help us with oversight of these various 
contracting activities. Now, these are quite highly trained and 
experienced individuals. It is another area in which Secretary 
Gates has worked exceedingly hard to encourage the services to 
find these individuals and to provide them to us.
    I think we are about halfway there in that, and there is a 
good prospect for additional ones coming.
    We have formed two task forces, Task Force 2010 and Task 
Force Spotlight. The latter focuses on the issue of private 
security contractors as we move forward, an area of legitimate 
and understandable concern to President Karzai, as they can 
take on the role of extralegal armed groups, if not careful, 
without sufficient oversight.
    And then the other is looking at all contracts. And we 
reviewed several hundred contracts to this point. There is a 
small percentage of those that we have identified in which 
there have been activities ongoing that either, again, 
undermine our counterinsurgency effort or corrupt or a 
combination of the two.
    And in those cases, we have indeed debarred nine 
contractors, and then there are a couple dozen more--a few 
dozen more that are under suspension with the possibility of 
debarment.
    Mr. Conaway. Will this legislation give you access to the 
books and records of the contractors that you may not have 
access to now?
    General Petraeus. There could be a provision. Again, I am 
not the expert on the legislation, other than to have been 
assured by those who are experts that it would be very helpful 
to us in what it is we are trying to do.
    Because we occasionally are unable to take action as 
swiftly as we would like to.
    Mr. Conaway. Okay. Michele, most of us think that 
Afghanistan will be a country in which the world will have to 
pour resources for a long time. Can you give us some sort of a 
scope as to what we currently spend there as ISAF, writ large, 
versus the Afghan economy?
    And what are the--or what are you all's plans, you know, 
post-our leaving, whatever that might be, with troops and the 
Afghanis have got the national police in place and the Afghan 
national army is in place, and--police and all that is 
working--can you give us some sort of a scope as to how they--
how that continues to fund that infrastructure of security?
    Secretary Flournoy. Congressman, I would like to get back 
to you on the figures, particularly the comparison between what 
we are spending versus the Afghan GDP [gross domestic product]. 
So I will--if that is okay, I will take that and get back to 
you with the figures on the record.
    [The information referred to can be found in the Appendix 
on page 99.]
    Secretary Flournoy. But I think, you know, we are seeing 
the beginnings of growth in the Afghan economy as they bring 
their agricultural sector back. But I think, long-term, the key 
elements are going to be creating the capacity to really build 
a strategic minerals extraction industry that actually benefits 
the Afghan people and the Afghan government, not just the 
foreign companies who come in, although there will be benefits 
for them as well.
    Building a whole--they really don't have a customs, 
taxation--they have no real revenue-generating system that is 
above board and that is, sort of, formalized and so forth.
    And so part of what we are doing is providing advisers to 
the various ministries, particularly the finance ministry, to 
help them put some of these structures and systems in place.
    Mr. Conaway. All right. Please don't break our internal 
revenue code over there, as a go-by. That doesn't work.
    Secretary Flournoy. Okay.
    Mr. Conaway. Thank you for your service. Appreciate it.
    The Chairman. Thank you. Ms. Pingree.
    Ms. Pingree. Thank you, Mr. Chair.
    Thank you, Secretary Flournoy and General Petraeus, for 
joining us today. I know it has been a long day already, and I 
can see you are down at the bottom row, so congratulations on 
making it this far.
    And I want to reiterate what many of my colleagues have 
said. That is that we all truly appreciate the hard work and 
sacrifice of both of you and the troops that you lead. And 
coming from the state of Maine, where we do have National Guard 
deployed and have sent so many of our citizens to this and 
other wars, we know what this sacrifice is.
    Also in Maine, when we look at the costs of this war, we 
feel that there has been an extraordinarily high burden to our 
state when you divide that up. It is about $3.4 billion, the 
cost to our state residents in paying for the war in 
Afghanistan.
    And I continue to hear from my constituents about the 
astronomical costs that we have here, both in our lives lost 
and the resources we sacrifice at home to support the ongoing 
mission. I want to talk a little bit about that.
    As we have seen earlier, 75 percent of Americans have said 
that a substantial number of combat troops should be removed 
from Afghanistan this summer, according to a Washington Post 
poll released this week.
    Many like myself are deeply concerned that this will not be 
a reality come July, and I think we know that is true.
    Every day more and more Americans are looking for an end to 
this war, but as we sit here and talk about it, there really 
doesn't seem to be an end in sight.
    DOD budget documents have forecast a drop of U.S. troops in 
Afghanistan from 102,000 to 98,250. That is only a 3.5 percent 
reduction, which can hardly be described as an accelerated 
transition.
    In the President's final orders for escalation, he defined 
the mission of escalation as setting conditions for accelerated 
transition to Afghan authorities beginning in this July.
    However, I believe there is a lack of transparency and 
accountability, and this has raised some serious concerns. And 
it has also made it more challenging to fully understand some 
of the conditions on the ground.
    In recent months, I believe there has been a significant 
reduction in information about the war in Afghanistan coming 
from the Pentagon. For example, you have made it clear that a 
key ingredient to a successful counterinsurgency strategy is 
for the population in Afghanistan to support and have 
confidence in their government.
    As you once put it, and I know you have again, you cannot 
kill or capture your way to victory in Afghanistan.
    This makes it hard to understand why data collected 
quarterly about the support of Afghans, the support that they 
have for the government, was dropped from your most recent 
report to Congress in November of 2010.
    I am interested in knowing whether this decision has been 
made to no longer collect this data, and if the decision has 
not been made, why it was omitted from the report?
    One of my major concerns, as well as the loss of life, and 
one that I share with my constituents, is if taxpayer dollars 
are being used appropriately.
    Reports by the GAO special inspector general for Afghan 
reconstruction and others have raised serious concerns about 
the potential waste of U.S. taxpayer dollars associated with 
security and reconstruction efforts in Afghanistan.
    Last April the Department of Defense reported that Afghan 
civil service support program, ACSS, will disburse $85 million 
in support of civil service reform efforts from January 2010 to 
the end of the project in 2011.
    The department also reported that the U.S. government was 
transferring $30 million directly to the Afghan ministry of 
finance to support the civilian technical assistance plan.
    And in fiscal year 2010, $1 billion was appropriated for 
the commanders' emergency program with the goal of continuing 
reconstruction and development work.
    I know you have spoken in support of that program, but I 
have serious concerns about how it is spent, and have not seen 
any accounting to Congress about those--how those U.S. taxpayer 
dollars have been spent.
    I know this is a lot of information to provide in my last 
minute and would be happy to see it in writing.
    But I would like to know more, and I would like the 
committee to have more information about how U.S. taxpayer 
funds in the Commander's Emergency Response Program have been 
used and what objectives that funding has achieved.
    The Chairman. I would ask that you do wrap this up at the 5 
minutes. I know you have a hard leave time and we still have 
several members. So----
    Ms. Pingree. And I completely concur with that. It is a lot 
of information and I would be happy to see it in writing. So I 
appreciate that.
    General Petraeus. Let me just state, I would welcome the 
opportunity to provide it. We will be completely transparent 
with you. We have voluminous records on how CERP is spent. And 
the $400 million that is spent directly by our commanders to 
support the security gains averages about $17,000 a project, 
and we can show you every single project and lay that out for 
you.
    [The information referred to can be found in the Appendix 
on page 99.]
    General Petraeus. The CERP AIF [Afghanistan Infrastructure 
Fund] is working its way through, because that is spent in 
coordination with AID, as I am sure you know. And then the CERP 
for reintegration $50 million has been invaluable in helping 
our Afghan partners initiate the conduct of reintegration of 
reconcilable members. We have spent about $5 million to $6 
million of that so far.
    Secretary Flournoy. If I could just say, I think that if 
you look at the reporting to Congress, that we have sought to 
make it more factual, more detailed, and, frankly, have been 
complimented on that.
    On the specific issue of the polls, I will look into that 
and try to get to you whatever the latest polling information 
we have on that. Because we are striving to be more 
transparent, to be more factual and provide more data to 
Congress.
    [The information referred to can be found in the Appendix 
on page 99.]
    Secretary Flournoy. On the July 2011 date, a couple of 
folks have said, you know, we are not going to realize what the 
President promised. We are. We will begin the responsible 
drawdown in July.
    What 2014 is, is not moving the goal posts, it is just 
setting the goal of what we--when we expect to complete the 
transition to Afghanistan lead for security countrywide.
    So these two dates are bookends. It is not a moving of the 
goal posts.
    Ms. Pingree. My time has run out, but I will look forward 
to following up with you in the future. Thank you.
    The Chairman. Thank you.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    First, Secretary Flournoy, let me just say thanks for being 
so accessible to us and being here so much for us so that we 
are able to ask. You have made yourself very available all the 
time. I am sure you enjoy it.
    And, General Petraeus, I don't think people understand 
first the sacrifices and the time. I mean, you have been going 
nonstop since--well, since you first deployed to Iraq. So it is 
hard for anybody, even me with three tours, it is still nothing 
compared to what you have gone through, and your family, and 
your wife, and how tired you must be just in general of this. 
And I am sure nobody wants victory in Afghanistan so you can 
get out more than you do, and we understand that.
    My little brother got back from Iraq, from his 1-year tour, 
without a combat action ribbon. So with that, I want to thank 
you, too. He was in the 4th Stryker Brigade up there, and he is 
not happy with you for that, but we are, my father and I.
    And lastly, pertaining to Iraq as well, thank you again for 
giving us victory over there. You and General Keane and General 
Odierno and what you orchestrated. My father just wrote a book 
called ``Victory in Iraq,'' and it is because of you. So I 
don't think we talk about that enough, that we did achieve 
victory there, and thank you for that.
    First question is, in the first part of your testimony, 
General, you said, ``But I do believe there will be some combat 
forces included in those options and in that recommendation.'' 
I think it was in regard to Chairman McKeon's question.
    So the question is, is every option you are going to submit 
going to have combat forces included for withdrawal, or will 
that be one of the options?
    General Petraeus. I am still working on the options, as I 
said. And there is still obviously some months to run. It is 
something that will be, again, based on conditions on the 
ground. And so we want to--frankly, any commander always wants 
as much flexibility as he can have prior to doing--providing 
options and recommendations. And so we are going to exercise 
that to the best of our ability.
    Mr. Hunter. But will every option have--if you give five 
options, will all five include a combat troop withdrawal or 
combat troop withdrawal could be included in your options?
    General Petraeus. Could be included in those. Again, I 
don't want to get pinned down into what each option will 
consist of at this point in time, because we are still 
formulating them.
    Mr. Hunter. And when it comes to risk, obviously, is 
Congress going to be able to be presented with a risk analysis 
of your drawdown----
    General Petraeus. Well, I----
    Mr. Hunter [continuing]. I mean, if you drop by 5,000, the 
risk goes up by this much, et cetera?
    General Petraeus. Again, there is a variety of criteria, 
actually--one of which, by the way, is that it is a meaningful 
implementation of the policy, because, again, there is 
something about the message of urgency here that does actually 
have significance, as Secretary Gates has explained I think 
quite effectively to the SASC. But then in other cases there 
will certainly be risks in certain aspects.
    I will lay that out for the chain of command. It is going 
to be extraordinarily closely held and will then be presented 
to the President. And, you know, beyond that point in time I 
will defer to the Pentagon on how they might share that with 
the Congress.
    Mr. Hunter. Okay. Thank you.
    Madam Flournoy, along with Ms. Pingree's question--she 
asked about CERP--I know that CERP works, because I saw it 
work. I mean, there is nothing better you can spend--there is 
no way to better spend the money than put it into the 
commander's hands, sometimes when that ground commander is like 
the mayor of that town basically for a while as it stands up.
    My question is, I was working a little bit with General 
Duncan, Arnie Duncan--not Arnie Duncan, trying to think of his 
first name. He was the I.G. [Inspector General] for USAID.
    General Petraeus. Arnie Fields?
    Mr. Hunter. Arnie Fields. Sorry, Arnie Fields. Too many 
Duncans and Arnies.
    And he is no longer there, but we were looking at how aid 
is being spent on the State Department side. I think that is a 
big question a lot of folks have, because the military keeps 
extraordinary records. The State Department side doesn't 
always.
    Who is in charge now for, you know, further on contact from 
me, who should we be contacting to make sure that aid money is 
being spent appropriately? Because we have all heard these $100 
million bungles that USAID has done.
    Secretary Flournoy. Sure. I think the two people who are 
really providing the critical oversight are the new Deputy 
Secretary of State, Tom Nides, and the head of USAID, Raj Shah. 
They have provided pretty clear guidance, policy guidance, on 
what the priority should be.
    Down at the embassy level, that has been integrated as the 
civilian dimensions of an integrated campaign plan with ISAF. 
And there are oversight levels down at the embassy level as 
well.
    So--but I think they would be happy to come in and explain 
to you how that works and how it is integrated with the 
military campaign.
    Mr. Hunter. And I am going to finish early. Thank you, Mr. 
Chairman.
    Thank you both so much for your service.
    The Chairman. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    And thank you, Under Secretary Flournoy and General 
Petraeus, for your service to the nation. Thank you for being 
here today.
    General Petraeus, you have done something that perhaps many 
people didn't think could be done, and that was to establish an 
orderly withdrawal from Iraq. I know of nobody who says 
anything like we failed over there, even though it was a 
mission that should not have been undertaken, in my opinion.
    But nevertheless, we are in a bad situation. We are 
starting to draw down. We have drawn down considerably, quite a 
few troops there. And I look forward to the same eventuality in 
Afghanistan, and the sooner the better.
    I have heard the President and I have heard you this 
morning say that the principal objective of the United States 
in Afghanistan is to disrupt, dismantle and defeat Al Qaeda.
    And I have also heard you say today that we are there to 
subdue the Taliban, promote economic development, and engage in 
diplomacy. And I assume that the diplomacy has to do with 
political reconciliation. Am I correct?
    General Petraeus. Well, first of all, if I could, our core 
objective in Afghanistan, of course, again, relates to Al 
Qaeda. And that is to make sure that Al Qaeda does not return 
to Afghanistan and establish the kind of sanctuary they had 
prior to 9/11.
    So, again, that is the focus. Now, the only way to do 
that----
    Mr. Johnson. And we only have 100 or so Al Qaeda.
    General Petraeus. The only way to make sure they don't 
return in greater numbers is to help Afghanistan over time 
develop the capability to secure and to govern itself. And that 
leads to the need for the comprehensive civil-military campaign 
that I have described to you this morning.
    Mr. Johnson. I see. I see. So we have moved past the 
subdue, disrupt, dismantle and defeat Al Qaeda per se and now 
we are on that second strategy of subduing the Taliban.
    How many of those--how many people would you say we are 
engaged with militarily in Afghanistan, in terms of the 
opposition?
    General Petraeus. Well, as I mentioned earlier, 
Congressman, there is--you know, the upper bound would be in 
the 25,000 range when you are in the full-blown fighting 
season, if indeed they do return to that number. And given the 
losses sustained by mid-level leaders and a number of the 
fighters, we will have to see indeed how that transpires this 
spring and this summer.
    It is not at that level certainly right now. You know, I 
can literally walk you around the map at this point and show 
you where the active cells and active insurgent groups are.
    Mr. Johnson. So what I hear you saying--and I hate to 
interrupt, but I don't have a lot of time--is that we are 
substantially forward in terms of controlling the Taliban. How 
are we doing as far as reconciliation, political 
reconciliation?
    General Petraeus. Yes, there are two components really, if 
you will, to reconciliation. There is the component that is 
reintegration of reconcilable mid-level leaders and below. And 
as I mentioned in my opening statement, there are about 700 of 
those who have officially reintegrated, gone through all the 
steps of the official reintegration. There are another 2,000 or 
so who are in various stages of that process.
    And then we are trying to get a grip on how many have 
literally sort of unofficially reintegrated by just going back 
to their villages, laying down their weapons and reintegrating 
themselves into society without making a big deal about it so 
that they don't make themselves vulnerable to the Taliban or 
visible to the Taliban as having done that.
    The other component is the reconciliation with senior 
Taliban-level leaders. That is something that is and has to be 
Afghan-led. That is what Secretary Clinton talked about in 
terms of the diplomatic surge, if you will, and so forth.
    The Chairman. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    And thank you, General Petraeus and Madam Secretary, for 
your service to our country.
    The Secretary of Defense recently said at West Point that 
if a general came up to him and recommended that we do the 
similar action, that we invade, pacify, and worse, we in effect 
engage in nation-building again, that he would say absolutely 
not.
    And I just want to second that. I think we have 
significant, I think, security interests in Afghanistan. And I 
think we don't want the Taliban to take over the country, to 
make that a permissive environment whereby they could leverage 
that as a nation-state to further destabilize Pakistan; to 
assist the Taliban on the other side of the Durand Line; that 
we need some basis from which we can launch attacks against Al 
Qaeda in the FATA areas of Pakistan.
    And so I think that those are certainly significant, but we 
seem to have taken the most costly approach to achieve our 
security interest in Afghanistan, spending over $100 billion a 
year, and that the American taxpayers will be on the hook 
indefinitely. Even when we are out of Afghanistan, there is a 
projected $8 billion-a-year cost in terms of maintaining Afghan 
security forces because they don't have an economy to do that. 
That we are, in fact--I think our first actions in there were 
brilliant. We gave air, logistical and advisory support to the 
anti-Taliban forces in the country which were the Northern 
Alliance, and they drove them out.
    And instead of using our leverage to say, ``You know, you 
need to reach out,'' to, say, the anti-Taliban Pashtun elements 
in the country, and that we will assist you so long as you keep 
the Taliban and Al Qaeda out, we led an effort to superimpose a 
political system on them that doesn't fit the political culture 
of the country; that doesn't have the capacity to govern 
outside of Kabul; that is mired in corruption.
    We are trying to restructure that society and build them 
the economy at U.S. taxpayers' expense that they have never had 
before. I mean, you say we are not nation-building to build 
them a Switzerland, but at over $100 billion a year, we ought 
to expect a Switzerland.
    So I, you know, I am--but I have got to tell you this. I am 
in a hard position here. I came into Congress after this whole 
thing was going on. And I volunteered to go to Iraq even though 
I disagreed with invading the country because I believe that 
once in, we have an obligation to finish the job. We just can't 
simply run away. We can't simply expeditiously extricate 
ourselves from that situation.
    But, so I just want to tell you that my--I have served this 
country now for a third time--Army, Marine Corps and as a 
member of Congress on this committee--and if I can accomplish 
anything on this tour of duty, it is keeping this country from 
ever going down this path again.
    But with that said, could you please, no matter--I was with 
the Marines in Helmand province in November where they are 
making tactical successes. But tactical successes on the ground 
are meaningless unless we have the Afghans coming in with the 
governance piece after we have stabilized an area.
    So could you tell me, General Petraeus or Madam Secretary, 
are the Afghans able to in fact accomplish that? Are there 
any--can you give me any specifics where they have stepped in?
    General Petraeus. Absolutely.
    Mr. Coffman. Please go ahead.
    General Petraeus. Absolutely, Congressman. If you look at 
the five central districts of Helmand province, you will find 
actually quite good district governors now in charge of each of 
them. In some cases, it has taken more than one to get to that 
point, such as in the case of Marjah. But in each case now, we 
assess the district governors and the provincial governor as 
really quite positive individuals and doing good work.
    With respect, I think you are arguably correct that the 
first actions were brilliant. Certainly, it was a lightning 
campaign and it took out the Taliban, but they were not 
sufficiently capitalized on. And had we left it like that, it 
would have been in the hands of the warlords that we used to 
get rid of the Taliban, and there is no indication that they 
could have controlled the country, and you would have plunged 
back into a civil war.
    So I think, again, that we certainly have to think through, 
you know, the what-thens and the second- and third- and fourth-
order effects of these kind of endeavors, without question and 
I agree with you very strongly on that.
    And also with respect, this is the only approach to 
achieving our core objectives in Afghanistan. Now, if you don't 
want to achieve those objectives, then that is a different 
matter. But the fact is that we have tried every other 
approach. I put a slide in there that showed the different 
approaches that we tried all along the way, essentially 
counterterrorism, counterinsurgency-light, and these other 
approaches, and I can assure you that none of them are 
adequate. And that is why we are doing what we are doing.
    Finally, I think it is only fair to recognize that 
Afghanistan actually first of all was a nation-state before our 
own state; and second, had some 40 to 50 years of quite 
reasonable national peace and tranquility under a central 
government from Kabul prior to the onset of the tragic 30 years 
of war that they have sustained.
    Thanks again, Congressman.
    Mr. Coffman. Thank you, Mr. Chairman.
    I yield back.
    The Chairman. Thank you.
    Madam Secretary, General, I know your time to leave was at 
one o'clock. Could I ask you to stay another 15 minutes?
    General Petraeus. I think we can do another 10 minutes, but 
we are actually meeting with--the former speaker is our next 
appointment, at least on my side.
    The Chairman. Oh, well then let's stay another 20.
    [Laughter.]
    Mr. West.
    Mr. West. Thank you so much, Mr. Chairman.
    And thank you, Secretary Flournoy and also General 
Petraeus. All the way, sir.
    I spent 2\1/2\ years in Afghanistan, June 2005 to November 
2007, and I am looking forward to getting back over there to 
visit with you in a couple months.
    But based upon my recent trip to Guantanamo Bay and also 
some of the issues that we know we are having at Pul-e-Charkhi 
prison, how is the Administration planning to handle the 
transfer or release of high-value and third-country nationals 
when withdrawal occurs? And specifically, I am looking at how 
we are planning to release or transfer these populations of 
detainees who are members of Al Qaeda and affiliated splinter 
groups without placing our national security at risk.
    General Petraeus. First of all, thanks for what you did do 
there, and we do look forward to getting another master 
paratrooper back out there with us.
    With respect to Pul-e-Charkhi, there has actually been 
substantial improvement there. In fact, there was an article in 
The Washington Post about Pul-e-Charkhi that our individuals 
who are in charge of helping the Afghan and also the State 
Department INL [Bureau of International Narcotics and Law 
Enforcement Affairs] individuals with--actually provided some 
updated information for them.
    There are still significant areas in which there need to be 
improvements there, but we have actually focused a fair amount 
with the Joint Task Force 435, not just on ensuring that the 
detention facility in Parwan, which is the new facility at 
Bagram Airbase, not the old one, is truly an international 
organization that monitors this, that we are not allowed to use 
the name of, but call it ``the gold standard'' in detention 
operations.
    And we are seeking to help our Afghan partners as well 
because indeed, you do have to take bad guys off the 
battlefield in a counterinsurgency operation. And they can't be 
broken out, as they were broken out of the prison down in 
Kandahar on an annual basis. And there hasn't been a jailbreak 
down there annually since--in the last year-and-a-half either.
    With respect to the third country, this is a substantial 
policy issue, and I am happy to hand off to the USDP [Under 
Secretary of Defense for Policy] on that one.
    Secretary Flournoy. So we do have a number of third-country 
nationals in the facility at Parwan, at Bagram. All of these 
are, as in every detainee case, they are reviewed by a 
detention review board within 60 days, and then every 6 months 
after, to determine their status, whether they meet the 
criteria for continued internment; whether they should be 
recommended for transfer to a third country for criminal 
prosecution and so forth.
    Those recommendations come all the way up to the Deputy 
Secretary of Defense level for review and decision.
    If we were to have additional third-country nationals 
captured in Afghanistan, they would be brought to that 
facility. That facility is not part of what is going to be 
transferred to Afghan control as we transition responsibility 
for detention operations.
    General Petraeus. And if I could just add by the way, we 
have actually begun the process of transition in the detention 
arena as well. We started last year with the training and the 
development of Afghan security forces who can over time take 
over the various detainee housing units in the detention 
facility in Parwan. They already control the first one. There 
are a couple-hundred Afghan detainees who have been 
transitioned to them.
    And the process is that we provide the basis for which they 
were detained, which is in our system, if you will, a national 
security threat under the U.N. Security Council resolution that 
gives us this authority. But then we help them establish the 
case for charging them under Afghan law, and interestingly, 
biometrics and other forensics have proven to be very helpful 
and very persuasive, that we get off, for example, improvised 
explosive devices and so forth.
    And as I said, that process has begun already and a couple-
hundred have already been transitioned, and it is accelerating 
as we go along.
    Mr. West. Thank you very much, sir, and I will see you over 
in the box.
    And I yield back to the Chairman.
    The Chairman. Thank you.
    Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak. Thank you for sticking around.
    I guess it is appropriate that this may be the final 
question or a final bit of conversation that we have. It is the 
issue of suicides among our soldiers. From 2005 to 2009, we 
have had 1,100 soldiers commit suicide, one every 36 hours. A 
report in Navy Times said that 7.3 percent of Army, Navy and 
Marines have thought about attempting suicide.
    Have we changed any of our pre-deployment training or 
training in general to try to help diminish these numbers a 
bit?
    General Petraeus. We have. We have also taken a number of 
steps in the theater in a whole host of different ways, 
everything from increasing the staffing of medical 
professionals who deal with this, to the training of leaders to 
identify individuals who might be at risk, and literally 
training all to be willing to raise one's hand and not feel as 
if, you know, it is just unacceptable to say, ``Hey, I am 
feeling under some considerable stress, and so forth, and would 
like to talk to someone about it.''
    Touch wood, but the rate in Afghanistan has been 
significantly less since these have been instituted. There are 
also significant policies, of course, that have been enacted 
for post-deployment, because that is really where the 
challenges are.
    That is not something I have obviously had oversight of as 
the Commander in Afghanistan, but I have obviously monitored as 
an Army four-star with the Vice Chief of Staff of Army and the 
Chief of Staff, directing a number of actions for the post-
deployment period as well.
    And the Under Secretary might want to supplement that.
    Secretary Flournoy. If I could just add, there is intense 
interest and concern on the part of the Secretary, the Chiefs, 
the service Secretaries about this issue.
    Interestingly, from what we can tell, the data suggests 
there is not a strong correlation with deployment, in terms of 
the rates don't increase based on time deployed or number of 
deployments.
    But in any case there is an intensive effort to--for a 
broad educational effort on how to identify the signs, giving 
people the sense that they can come forward with concerns 
without risk--taking risk in their careers, much more 
resourcing of prevention programs, greater availability of 
prevention programs, and just a much broader set of efforts to 
get at overall stress on the force, whether it manifests itself 
in this way or in other things like divorce rates or PTSD 
[post-traumatic stress disorder] and so forth.
    So this has really risen to the level of getting strategic-
level attention in the department.
    Mr. Ryan. Well, I appreciate that, and I think a lot of 
these numbers don't include those people who, you know, also 
get in car accidents because they are drinking and driving, and 
substance abuse. And you guys know the whole routine.
    And I wanted to bring this up to you primarily because, 
General Petraeus, you are the preeminent military man in our 
country today. And I wanted to just bring to your attention--
and you guys probably know some of this already--but the recent 
brain science, the field of neuroplasticity gives great hope to 
some of these soldiers.
    And I want to point you to a study and a program called 
Mind Fitness by Elizabeth Stanley, who is over in Georgetown 
with a neuroscientist, Amishi Jha. And they did this study, and 
it is basically dealing with working memory capacity and how 
through the training, through this mind fitness training--and 
they studied about 30 Marines--through the mind fitness 
training you can actually build up resiliency within the 
working memory capacity.
    And studies have shown outside of the military increased 
working memory capacity has all kinds of benefits that I think 
would benefit the soldier, situational awareness, attention 
skills, awareness, all of these great things.
    But in addition to that, she cites in her report here, 
which I will hand each of you before you leave here, working--
people with low working memory capacity have poorer academic 
achievement, lower standardized tests, more episodes of mind 
wandering, which gets to the operational side.
    But they are more likely to suffer from PTSD, anxiety 
disorders, substance abuse, and are more likely to exhibit 
prejudicial behavior towards personally disliked groups.
    So the point is, I think a part of our training pre-
deployment can be working on increasing this working memory 
capacity as a buffer throughout the deployment and possibly an 
opportunity.
    So a lot more studies have to be done. I wanted to take 
this opportunity to bring it to your attention because I think 
it really can be transformational for how we train our troops.
    General Petraeus. In fact, the Army has launched an 
initiative, it is about a year old now, I think, on resiliency 
training, that you can actually, again, harden an individual 
psychologically in advance and actually recover more rapidly if 
that--if that training is carried out.
    Thank you.
    The Chairman. Madam Secretary, General, I know that you 
have given us an additional 15 minutes. I thank you for your 
patience. And let the former speaker know we are sorry that you 
are late. And we appreciate her patience.
    What I would ask, we have four other members here that have 
been patient but not able to get their questions in. If they 
put them to you in writing, would you please respond to them?
    General Petraeus. Absolutely, Mr. Chairman.
    The Chairman. Thank you very much.
    General Petraeus. Thank you.
    The Chairman. This hearing will stand in and be adjourned.
    [Whereupon, at 1:17 p.m., the committee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             March 16, 2011

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 16, 2011

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 16, 2011

=======================================================================
      
              RESPONSE TO QUESTION SUBMITTED BY MR. ROGERS

    General Petraeus. [The information referred to is classified and 
retained in the committee files.] [See page 44.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. COOPER
    General Petraeus. [The information referred to is classified and 
retained in the committee files.] [See page 25.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. CONAWAY
    Secretary Flournoy. [The information referred to was not available 
at the time of printing.] [See page 48.]
                                 ______
                                 
             RESPONSES TO QUESTION SUBMITTED BY MS. PINGREE
    Secretary Flournoy. [The information referred to was not available 
at the time of printing.] [See page 50.]
    General Petraeus. [The information referred to was not available at 
the time of printing.] [See page 50.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 16, 2011

=======================================================================

      
                    QUESTION SUBMITTED BY MR. MILLER

    Mr. Miller. The January 2011 SIGAR report identified the absence of 
a ``coordinated, results-oriented approach to determine whether CERP 
projects have achieved their goals, are being used as intended, and are 
being sustained.'' Such an approach does exist in the Tactical Conflict 
Assessment Planning Framework (TCAPF)-credited by commanders as 
contributing to successes in areas of Helmand and Kunar Provinces. Do 
you believe there is merit in institutionalizing TCAPF as a means of 
focusing the targeting of CERP funds and evaluating their effectiveness 
in terms of reducing instability?
    General Petraeus. The Tactical Conflict Assessment Planning 
Framework (TCAPF) is designed to identify the causes of instability, to 
develop initiatives to diminish or mitigate those causes, and to 
evaluate the effectiveness of those initiatives in fostering stability 
at the tactical level. By focusing on village dynamics and priorities, 
and, in particular, follow-up interviews, TCAPF has been useful in 
determining whether stability has improved as a result of implemented 
projects.
    The Commander's Emergency Response Program (CERP) encompasses 
programs and projects intended to have immediate tactical effects for 
the warfighter, including development initiatives, construction 
projects, and humanitarian efforts. To implement CERP effectively, we 
established the Money As A Weapon System--Afghanistan (MAAWS-A) CERP 
Standard Operating Procedures (SOP) to provide guidelines that are, in 
fact, similar to those that guide TCAPF and that incorporate lessons 
learned from SOPs in Iraq. For example, CERP projects are currently 
initiated after speaking with the local Afghan population--including 
village elders and other local leaders--to determine their most 
critical needs so that we can support the highest priority 
requirements.
    CERP could potentially benefit from TCAPF lessons learned and 
processes during after-action reviews. We will explore this concept 
further, with a particular focus on whether CERP SOPs need additional 
emphasis on follow-on interviews to determine whether CERP objectives 
were met. We will also examine whether TCAPF's instability assessment 
processes could benefit from data we are gathering as part of the CERP 
program.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. What is the strength of the Haqqani network in numbers?
    General Petraeus. [The information referred to is classified and 
retained in the committee files.]
    Mr. Cooper. What is the fighting capability of the Haqqani network? 
What do they bring to the fight compared to Taliban fighters?
    General Petraeus. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. Since you assumed command of the International Security 
Assistance Force and U.S. Forces, Afghanistan, what steps have you 
taken to reduce the opium production?
    a) Has it been successful? Please describe.
    b) What are you doing to limit future production?
    c) What can Congress do to help?
    General Petraeus. Since the illegal narcotics industry is the 
largest source of Afghanistan-derived income for the Taliban--with 
other revenue streams from outside the country--we are working to 
deprive the enemy of this important source of funding, especially in 
the major poppy-growing areas in the south. As we have made progress on 
the security front in Helmand, we have further pressured illegal 
narcotics networks by significantly increasing the amount of drugs 
interdicted and by reducing enemy freedom of movement. As security 
improves, we and our Afghan partners are also pursuing development 
initiatives to provide licit opportunities for Afghans as an 
alternative to the drug trade.
    Beyond security and development, we are also supporting Afghan-led 
eradication efforts, which are most mature in the south. Helmand 
Province, for example, accounts for around 70 percent of Afghanistan's 
eradication efforts, with approximately 1,600 hectares eradicated there 
in 2010. And, as of early April, more than 1,200 hectares had already 
been eradicated this year. Although crop-eradication initiatives are 
Afghan-led, we are working with our Afghan partners to offer incentives 
for provincial governors to pursue eradication, and these have shown 
signs of success this year.
    Additionally, the U.S. Drug Enforcement Agency is mentoring Afghan 
counter-narcotics police, who are showing an increase in capabilities 
as a result.
    a) Nationwide drug interdictions have increased significantly from 
last year, with interdictions in the south representing a significant 
portion of the finds. In the first quarter of 2011, we interdicted 
nearly 350 percent more illegal drugs than in the same time period in 
2010 (with a 700 percent increase between March 2010 and March 2011). 
Simultaneously, there was a nearly 50 percent decrease in nationwide 
opium production between 2009 and 2010, although a poppy blight last 
year is responsible for much of that.
    As part of our effort to sever the nexus between the insurgency, 
corrupt government officials, and narcotics traffickers, we are also 
working to establish a more effective counter-narcotics criminal 
justice center. Last year, the Afghans achieved a 98 percent conviction 
rate for drug-related offenses, with most sentences in the range of 15-
20 years.
    Clearly, much work remains to be done with all of our counter-
narcotics efforts--especially capacity-building--but we have made clear 
progress over the last year and anticipate that we will make further 
progress in the coming year.
    b) The most important element of our strategy to limit future 
production is to continue expanding the security bubbles in the most 
important poppy-growing areas in the south. Improved security increases 
the risk to narco-traffickers and also prevents the insurgency from 
reaping the full financial benefits of the drug trade. Additionally, 
security allows governance and development projects to take hold, which 
in turn helps to establish a licit economy that encourages Afghan 
farmers to grow licit crops rather than poppy.
    The other important element of our long-term strategy is to build 
Afghan capacity to maintain and to increase pressure on narcotics 
networks. Among other initiatives, this includes the continued 
development of the Afghan National Security Forces (especially the 
counter-narcotics police), support for eradication efforts, and 
expanded rule-of-law efforts to increase the Afghan government's 
ability to detain and prosecute drug kingpins and corrupt officials 
involved in the drug trade.
    c) Congress has been very supportive of our counter-narcotics 
efforts. Perhaps the most important area in which Congress can help is 
to ensure that the civilian agencies involved in counter-narcotics 
efforts have sufficient funding. In particular, our long-term success 
in this mission will depend on the important work of the Drug 
Enforcement Agency and the State Department's Bureau of International 
Narcotics and Law Enforcement Affairs.
    Mr. Turner. What conditions will you consider, in July 2011, to 
determine the extent of a U.S. troop drawdown?
    General Petraeus. I will consider all elements of our comprehensive 
civil-military campaign as I prepare my recommendation for a troop 
drawdown commencing in July 2011. As part of that process, I will 
provide my chain of command with various options as well as my best 
military advice for each, which will incorporate, among other factors, 
assessments of: security gains in key geographic areas; Afghan National 
Security Forces growth and development; Afghan readiness to assume 
additional security responsibilities; Afghan Local Police growth and 
effectiveness; reintegration momentum, and Afghan governance and 
development, especially at the district and provincial level.
    Mr. Turner. When do you expect to reach the next ``decision 
point,'' after July 2011, about possible further reductions in U.S. 
troop commitments?
    General Petraeus. Current and future decisions regarding a 
conditions-based drawdown of U.S. troops are ultimately the purview of 
the President. As we begin an initial U.S. drawdown in July 2011, I 
will continuously assess the situation on the ground in order to 
provide my best military advice to my chain of command during my 
remaining months on the ground.
                                 ______
                                 
                QUESTIONS SUBMITTED BY MR. RUPPERSBERGER
    Mr. Ruppersberger. Over the course of our involvement in 
Afghanistan and Iraq, we have learned many valuable lessons about 
reconstruction and stabilization. In your opinion, what would be the 
most valuable lesson learned in terms of something that was done 
successfully. What would be the most valuable lesson learned based on a 
policy that did not work?
    General Petraeus. The most valuable lesson learned about 
reconstruction and stabilization in both Iraq and Afghanistan is that 
reconstruction and stabilization is not an end in itself, but rather a 
means to lay the foundation for long-term security and development. In 
Afghanistan, we are dealing with a severely fractured and war-torn 
social and economic environment, where government capacity to deliver 
critical socio-economic services to the grassroots is weak. In these 
conditions, we have learned that we need to pursue both top-down and 
bottom-up approaches. For instance, we have to build capacity in key 
ministries to ensure that the Afghans can build sufficient security 
forces and also improve the ability to deliver certain services, such 
as those associated with the rule of law. At the same time, we also 
have to build up local communities with governance and development 
programs to empower the Afghan people and to increase economic 
opportunities. The World Bank-led National Solidarity Program is one 
example that incorporates local decision-making, prioritizes projects, 
and requires a minimum 10 percent community input--all of which 
supports our goal of mobilizing communities and connecting the people 
to their government.
    One of the most valuable lessons we have learned during these 
conflicts is the need to continually improve coordination and 
communication--with the host nation as well as other stakeholders, such 
as U.S. government agencies, international partners, and non-
governmental organizations. When it comes to coordinating with the host 
nation, it is particularly important to work with local partners and 
leaders to ensure a sense of responsibility and ownership by the 
community. In Iraq, we frequently tended to take a top-down approach to 
reconstruction, which did not always promote responsibility at the 
local level, and that in turn often undermined the long-term 
sustainability of individual projects. Although we have been more 
effective in Afghanistan, there are still instances where a lack of 
buy-in undermined the goal of a given initiative.
    More generally, we have learned the importance of coordinating with 
all the various stakeholders, on matters large and small, to ensure 
that we do not duplicate efforts and that we are all focused on the 
same goals. Obviously, this is a particular challenge considering how 
many actors are often involved. Still, improving our ability to get 
everyone on the same page is the only way that we can establish the 
necessary unity of effort to be successful in this endeavor.
    Mr. Ruppersberger. Currently, the Department of Defense, Department 
of State and the U.S. Agency for International Development have all 
been working together to implement reconstruction policy.
    a) Is this relationship working?
    b) How could it work better?
    c) Would you recommend the development of a separate agency to take 
over reconstruction policy?
    General Petraeus. a) Yes, a combined U.S. Embassy, USAID, ISAF, and 
USFOR-A civil-military team is working together closely to plan and to 
implement reconstruction policy, particularly with the development of 
large-scale strategic infrastructure projects.
    There are many examples of our combined efforts, especially in 
recent years. For instance, USAID and the U.S. Army Corps of Engineers 
(USACE) have leveraged resources to address multiple Afghanistan water-
resource issues. Over the last year, USAID has used Economic Support 
Funds to finance USACE provincial watershed assessments, 15 of which 
were completed in February 2011 (the remainder should be completed by 
June 2011). These assessments are critical to identify small-scale dam 
sites with the potential to increase agricultural production.
    A more significant example of our ability to work together on 
reconstruction is the newly created Afghan Infrastructure Fund (AIF), a 
joint venture between the State Department/USAID and the Defense 
Department. Projects require joint approval by the Secretaries of State 
and Defense, which requires close coordination. The initial proposal 
for this year's $400 million allotment included improvements to the 
Northeast Power System and the Southeast Power System, other projects 
to improve the national electricity grid, and funds for rule-of-law 
initiatives. We are currently working on a second list of projects to 
be nominated for funding in 2012.
    b) The relationship between the Defense Department, the State 
Department, and USAID has improved over the last several years as all 
three agencies have increasingly focused on the civil-military 
counterinsurgency campaign plan. Despite the increased coordination and 
common goal, there is still room to improve our collective 
understanding of individual roles and responsibilities and how they fit 
into the overall campaign plan. This is particularly true when it comes 
to development efforts, but, as noted, we have made substantial 
progress in this arena.
    c) I would not recommend creating a separate agency to lead 
reconstruction policy, especially considering the improvements we have 
made and are making along this important line of effort. Creating 
another agency would not necessarily translate into either better 
policy or better policy implementation. It could, in fact, have the 
opposite effect since it would inevitably increase bureaucratic 
friction and confuse the current roles and responsibilities that have 
evolved over many years and in response to many lessons learned.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. General, President Obama has noted that ``Pakistan is 
central to our efforts to defeat Al Qaeda'' and has insisted that 
Pakistan deal with terrorist safe havens within their borders. As a 
result, we have poured money into the country in hopes of having some 
effect on Pakistani leadership. I am concerned how Pakistan is using 
these funds, especially given the recent killings of non-Muslims and 
the arrest of Raymond Davis, not to mention their nuclear stockpile.
    a) What is Pakistan doing with all of the funds we have given them?
    b) Are we handing money to trusted hands that share similar goals 
or are we funding a government that is increasingly opposed to our 
vision?
    General Petraeus. a) As commander of the International Security 
Assistance Force and U.S. Forces--Afghanistan, I do not have oversight 
of U.S. funds provided to Pakistan. Obviously, we coordinate closely 
with other U.S. entities working with Pakistan--and I have a working 
relationship with Pakistani military leaders--but specific funding 
questions would be better answered by the Office of the Defense 
Representative--Pakistan, the Office of the Secretary of Defense, and 
the State Department.
    b) Again, questions along these lines are better answered by the 
U.S. agencies that directly control the funding and by senior U.S. 
policymakers responsible for foreign policy.
    Mr. Franks. General, I am a big supporter of the Guard and Reserve 
Components of our military forces and I deeply appreciate their service 
to America. Given the 2014 timeframe, what is the role of the Guard and 
Reserve today in Afghanistan and how do you see their role evolving 
with the projected change of our Nation's force structure?
    General Petraeus. Current and future operations depend on a fully 
integrated Active, Guard, and Reserve force with the flexibility to 
respond quickly to changing operational requirements. As it is 
currently sized, the U.S. Army is dependent on the Reserve and National 
Guard to maintain the current deployment tempo in Iraq and Afghanistan 
and to provide critical enabling capabilities on the battlefield. In 
Afghanistan, Reservists and Guardsmen play particularly important roles 
in the fields of Engineering, Signal, Medical, Civil Affairs, 
Transportation, Logistics, and Military Police.
    As we move toward 2014 and beyond, a smaller active force may be 
even more dependent on these key enablers, although the number of 
troops deployed will also affect the roles of the Reservists and 
Guardsmen. Regardless, there is little doubt that our Guard and Reserve 
Components will be critical elements of our overall force in the years 
to come.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. JOHNSON
    Mr. Johnson. Al Qaeda has a relatively small presence in 
Afghanistan--likely less than 100 fighters, is that correct?
    General Petraeus. [The information referred to is classified and 
retained in the committee files.]
    Mr. Johnson. Is it correct that the overwhelming majority of combat 
engagements for coalition and Afghan security forces in Afghanistan do 
not involve Al Qaeda; instead, they involve a variety of armed groups 
with various ideological, political, or tribal identities and 
objectives?
    General Petraeus. [The information referred to is classified and 
retained in the committee files.]
    Mr. Johnson. Is it fair to say, General, that many of the warring 
factions in Afghanistan--and many of them are Pashtun--are principally 
concerned with domestic Afghan and local political issues?
    General Petraeus. [The information referred to is classified and 
retained in the committee files.]
    Mr. Johnson. Rather than attacking and further alienating these 
factions, General, and attempting to force their total submission to 
the Afghan central government, is it worth considering whether we 
should instead play the role of the honest broker and mediate disputes 
between these Afghan factions, facilitating the redress of grievances, 
so a political settlement can be achieved?
    General Petraeus. [The information referred to is classified and 
retained in the committee files.]
    Mr. Johnson. You have said, ``You don't end an industrial strength 
insurgency by killing or capturing all the bad guys. You have to kill, 
capture, or turn the bad guys, and that means reintegration and 
reconciliation.'' As we approach the 10th anniversary of the Bonn 
Conference, where are we on the reconciliation piece of that strategy? 
What will a likely political settlement look like?
    General Petraeus. [The information referred to is classified and 
retained in the committee files.]
    Mr. Johnson. In an op-ed in The New York Times on Wednesday, March 
23, Lakhdar Brahimi and Amb. Thomas Pickering write that, ``we believe 
the best moment to start the process toward reconciliation is now, 
while force levels are near their peak.'' In other words, we're at our 
position of greatest negotiating strength now. Do you agree with that 
and believe it's time to start negotiating? If not now, when will be 
the right time?
    General Petraeus. [The information referred to is classified and 
retained in the committee files.]
    Mr. Johnson. The spending resolution that the House passed last 
month cut the International Affairs budget by 16 percent. How would 
cutting State and USAID funding affect operations in the AfPak area?
    General Petraeus. Reducing State and USAID funding could 
significantly affect operations in Afghanistan, and, depending on the 
scale of the cuts, potentially undermine the hard-fought gains that we 
have made over the last year. Our State and USAID partners are involved 
in every element of our comprehensive civil-military counterinsurgency 
campaign. For example, State and USAID provide substantial funding and, 
just as importantly, institutional knowledge necessary to construct 
strategic infrastructure and to establish effective governance and rule 
of law--all of which is critical to the long-term stability of 
Afghanistan.
    Additionally, as the transition process begins, there will be a 
greater emphasis on the civilian elements of our civil-military 
campaign. In particular, we will need to support the Afghan government 
as it strengthens human and institutional capacity and as it works to 
improve basic-service delivery to the Afghan people. This includes 
initiatives to improve health care, education, sanitation, food 
security, vocational training, and access to potable water--all of 
which are important to successfully carrying out irreversible 
transition.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. General you stated that the core objective is ensuring 
that Afghanistan does not once again become a sanctuary for Al Qaeda. 
Achievement of this objective, I feel, is shared by everyone in this 
room and it requires that we help Afghanistan develop sufficient 
capabilities to secure and govern itself. You stated that in a typical 
90-day period, precision operations by SOCOM units and their Afghan 
counterparts alone kill or capture some 360 targeted insurgent leaders. 
I am assuming that these leaders have ties to the Taliban, Al Qaeda, 
the Haqqani Network, and various other groups sympatric to the Taliban 
and radical Islamic terrorism.
    a) It has been promulgated by multiple sources, including our 
current administration, that Afghan forces will take over throughout 
Afghanistan by the end of 2014; at that time who will assume the duties 
of kill/capture missions and the prolonged detention of captured 
insurgents?
    b) Do you see a shared strategic partnership in this endeavor after 
2014? The main point here being that if we are sending SOCOM units to 
kill or capture these targeted insurgents, who live most likely become 
high-value detainees, I assume they are threats to our national 
security. These aren't people we just want to ``let go'' of or lose 
situational awareness and control of after 2014.
    c) Between now and 2014, how do you and the ISAF plan to release or 
transfer these populations of detainees, who are members of Al Qaeda 
and affiliated splinter groups, without placing our national security 
at risk?
    d) Is there an adequate plan in place for transfer or release?
    General Petraeus. We intend for Afghan security forces to be in the 
lead for security across the country by the end of 2014. Obviously, 
capture/kill missions and detainee operations will remain important 
components of the fight over the next few years. To increase Afghan 
capacity to carry out targeted raids, we have been and are continuing 
to build Afghan commando and special operation units for high-precision 
missions. The Afghan Army has already fielded a formidable special 
operations component with nine commando kandaks and 14 Special Forces 
A-Teams, all of which are increasingly capable of performing 
independent operations. We intend to further increase the numbers and 
capabilities of these units in the years ahead so that Afghans can 
assume more responsibility for high-end missions. That said, even after 
2014, some targets may require high-end technology and capabilities 
that our armed forces alone possess.
    We have already started transitioning the Detention Facility in 
Parwan, and we are working with our Afghan partners to build Afghan 
capacity for detention operations. We believe that Afghans will possess 
the personnel and capacity to lead this effort by the end of 2014.
    Mr. Wittman. General, you have stated that it is imperative to 
ensure the transition actions we take are irreversible. We have one 
shot to get this right. You recognize that we and our Afghan partners 
cannot kill and capture our way out of this insurgency.
    a) With that said; can you please elaborate on the Afghan-led 
reintegration of reconcilable insurgents?
    b) What is a reconcilable insurgent?
    c) What is the reintegration process?
    d) How do we know that these 700 former Taliban who have been 
reintegrated, and 2000 who are in the process are not just biding their 
time?
    e) Are any of these men being reintegrated and then allowed to join 
the ANA or the ALP? As you know these guys have been fighting for 30 
plus years, and even though we have the watch, they have the time.
    General Petraeus. a) Reintegration is a process whereby insurgents 
lay down their arms and rejoin Afghan society. Reintegration is focused 
on lower-level fighters and commanders, and the official program--the 
Afghanistan Peace and Reintegration Program (APRP)--was implemented by 
the Afghan National Security Council in September 2010. Since APRP 
began, more than 1,700 fighters have officially enrolled, and an 
additional 2,000 are in some form of negotiation. ISAF's role in these 
efforts is to support them however we can, with the understanding that 
these must be Afghan-led processes in order for them to be successful.
    b) A reconcilable insurgent is an individual who is willing to stop 
fighting and to engage in dialogue and grievance resolution with 
community leaders or with the Afghan government; the central goal is 
for him to peacefully rejoin his community with dignity and honor. Due 
to the local nature of the insurgency--a majority of insurgents fight 
near their homes--the grievances driving fighters are often local in 
nature. The APRP seeks to enable local agreements so that villages and 
communities can reach out to insurgents, address grievances, and offer 
enticements to stop fighting. There are various reasons that an 
insurgent might choose to lay down his weapon, including fear over 
being targeted, a belief that fighting is no longer the way to achieve 
his goals, or simply that he is tired of fighting. Reintegration 
depends on trust and confidence among Afghans as well as the active 
participation of the Afghan government, which we are encouraging.
    c) APRP has three phases: 1) Social Outreach, Confidence Building, 
and Negotiation, 2) Demobilization, and 3) Consolidation of Peace. In 
the first phase, community, district, and provincial leaders reach out 
to insurgents--via both modern and traditional means--to learn of their 
grievances and to encourage them to peacefully rejoin their 
communities.
    If there is a willingness to reintegrate, and an insurgent meets 
APRP eligibility criteria, the ex-combatant enters the demobilization 
phase and is formally enrolled in APRP. Formal enrollment includes an 
intent-to-reintegrate form, individual survey, biometrics collection, 
small-arms registration, and heavy weapons turn-in. The reintegration 
candidates are then provided assistance to aid in meeting their basic 
needs and to replace financial support that may have been provided by 
the insurgency. This assistance lasts for approximately 90 days, during 
which time the goal is to enroll the reintegration candidates in 
disengagement training. This training is designed to counter common 
misperceptions among ex-combatants and to increase their chances of 
becoming healthy, productive members of their communities. The training 
includes modules on civics, dispute resolution, social responsibility, 
religion, and health. Upon successful completion of disengagement 
training, the candidate signs a Declaration of Reintegration.
    The third phase of APRP, Consolidation of Peace, aims to ensure 
that peace and reintegration are permanent. It involves community 
recovery initiatives that benefit the entire community, not just the 
insurgent. Elements of this phase include vocational and literacy 
training, long-term employment opportunities, and community development 
projects.
    d) It may be that a few of the more than 1,700 former fighters who 
have joined APRP are biding their time, but intelligence reports, 
interviews, and surveys of reintegration candidates all indicate that 
the vast majority of reintegration activities are genuine. The 
extensive steps involved in APRP also help to ensure that the 
willingness to leave the fight is sincere. The key is to continually 
engage ex-combatants as they proceed through the process and to 
facilitate local efforts since this is a very personal, community-based 
process that seeks to bind ex-combatants to their community, to the 
local government, and to the national government.
    e) When reintegration candidates complete the demobilization 
process, they are once again full citizens of Afghanistan, with all of 
the rights and responsibilities that entails. This means that a 
reintegrated individual is eligible to join the Afghan National 
Security Forces or the Afghan Local Police, assuming he meets the 
rigorous criteria and clears the multi-layered vetting process that 
each of these organizations have implemented.
    Mr. Wittman. General, can you discuss with us the importance of 
Village Stability Operations (VSO) and how this is going to affect the 
counterinsurgency? Can you talk to us about the objectives of VSO and 
how you see this integrated civil-military approach succeeding in 
Afghanistan?
    General Petraeus. Since 2009, Village Stability Operations (VSO) 
and, since fall 2010, the Afghan Local Police (ALP) program--a vital 
extension of our greater VSO efforts--have factored significantly into 
our civil-military counterinsurgency (COIN) campaign design and will 
continue to do so. VSO and ALP represent an integrated approach that is 
both bottom-up and top-down, providing security, development, and 
governance effects that are focused at the local (or village) level in 
rural Afghanistan. These local effects are also tangibly linked to the 
district, provincial, and national Afghan government in a manner that 
extends the government's presence to rural areas--a key goal of our 
COIN campaign.
    VSO and ALP districts also support the larger campaign plan by 
disrupting insurgent infiltration routes and by denying insurgents 
staging areas from which they can attack populations in key districts. 
By working through local shuras and community leaders, VSO and ALP help 
to mobilize communities to defend themselves. After all, no one is more 
vested in the security of a village than those who live there and those 
who have offered their own sons to defend the village. This ``defense 
in depth'' adds security in areas where Coalition forces are minimal or 
absent. In this respect, VSO and ALP act as important ``thickening'' 
agents to increase security-force presence, especially in rural areas. 
As of early May, there were 39 validated ALP sites with more than 5,800 
ALP patrolmen, with plans to expand to a total of 77 sites.
    In the vast majority of VSO and ALP sites, we have seen violence 
levels decrease since these sites were established. Initially, there is 
often a spike in violence as insurgents challenge new forces in areas 
that had been previously been uncontested, but, over time, violence 
subsides. Surveys suggest that strong majorities believe that ALP is 
capable of defending their community, and we are also starting to see 
an increase in the number of people returning to VSO communities. 
Finally, bazaars and commerce have become more robust in VSO/ALP areas. 
All of these are important signs of localized progress, and, taken 
together, are increasingly contributing to our overall COIN campaign.
    Mr. Wittman. General Petraeus, you mention in your testimony the 
importance of improving governance at the local level in Afghanistan.
    a) Am I to assume the same holds true at the national level as 
well?
    b) What are your thoughts with respect to governance capacity in 
central government ministries?
    c) Are these efforts also being hindered by State and USAID funding 
decisions?
    General Petraeus. a) Yes, our civil-military efforts to help our 
Afghan partners improve governance must be both bottom-up at the local 
level and top-down at the national level.
    b) Despite many challenges, the Afghan government continues to make 
measured progress in building the human and institutional capital of 
its central line ministries. For example, we have seen notable advance 
at the Ministries of Defense and Interior; continued institutional 
growth and development in those ministries will be particularly 
important as Afghans assume more responsibility for security efforts as 
part of the transition process. The Ministry of Justice likewise will 
need to increase capacity and effectiveness as well as its ability to 
extend its reach into the provinces with rule-of-law initiatives. And 
other ministries--such as the Ministries of Commerce, Mines, 
Agriculture, and Rural Development--have important roles to play in 
economic development.
    All the ministries face institutional and personnel shortcomings, 
but there are important efforts underway to improve the situation. For 
example, there are numerous capacity-building initiatives supported by 
donors, to include merit-based hiring, pay increases for government 
employees, improvements to the systems and processes linking central 
line ministries to provincial offices, and training programs for civil 
servants.
    Increasing the capacity of the central line ministries is a long-
term project that will require substantial investment in human-resource 
development over many years, but further progress is necessary to lay 
the foundation for long-term Afghan self-sustainment.
    c) These efforts are not yet being hindered by State and USAID 
funding decisions, but they likely would be if funding support is 
significantly reduced or is reduced in critical areas. Without strong 
support for the civilian elements of our civil-military campaign, 
stabilization and transition efforts will face real limitations--and we 
will potentially put our hard-fought gains at risk.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SUTTON
    Ms. Sutton. Understandably, there are many more preparations that 
need to be made for the drawdown of U.S. forces beginning in July.
    a) What is being done to coordinate the withdrawals of other NATO 
member countries whose forces are currently deployed in Afghanistan? 
Will their departure be phased out over the 2011-to-2014 timeframe?
    b) With three of the Regional Commands led by other nations, does 
the U.S. expect to take over in the interim in each of these areas, or 
will the withdrawals of these other nations involve a turnover directly 
to Afghan forces?
    General Petraeus. a) During the Lisbon Summit and subsequent 
international conferences, partner nations agreed on key principles as 
we move forward with plans to transition to Afghan security lead by the 
end of 2014. These principles included affirmation that any drawdowns 
during that time would be conditions-based and would also entail 
``reinvesting'' troops elsewhere in the country or in the training 
mission, as Canada is in the process of doing. Further, members of the 
Alliance have reaffirmed their commitment to Afghanistan through the 
end of 2014 and even beyond. Given all this, I believe that the actions 
of partner nations will be coordinated and based on conditions on the 
ground in Afghanistan. We will continue to work closely with our 
partners to ensure that decisions on troop drawdowns do not adversely 
affect the hard-fought gains that we have made.
    b) Troop decisions are still being formulated by partner nations--
as well as by the U.S.--so any discussions of specific areas or 
partner-nation plans would be premature. All troop-contributing nations 
agree that transition should be based on conditions on the ground, and, 
further, as Secretary Gates said during the March Defense Ministerial 
in Brussels, our goal is for members of the Alliance to abide by the 
principle of ``in together, out together.'' Obviously, the continued 
growth and development of Afghan security forces will inform decisions 
about troop drawdowns as well as the nature of the transition in any 
given geographic area, which will likely vary by region.
    Ms. Sutton. Our brave men and women have been serving in 
Afghanistan since 2001, along with civilian personnel, contractors, 
diplomats, and many others. Many have bravely served and much has 
changed in Afghanistan's landscape after a U.S. presence.
    a) What do you believe it will look like in 2014?
    b) Are there only U.S. civilian personnel?
    c) Are any of our soldiers still deployed, and how many?
    d) Would those soldiers be restricted to certain areas, or bases?
    e) Will we be the only country with a presence, or will other NATO 
members also have personnel stationed there after 2014?
    General Petraeus. a) I am still developing recommendations for my 
chain of command for the initial conditions-based drawdown of U.S. 
troops to commence in July 2011. Given that, it would be premature to 
speculate on our force posture in 2014.
    b) It would be premature to predict the exact composition of our 
military and civilian presence in 2014 since those are ultimately 
decisions for the President.
    c) Again, it would be premature to predict exact numbers or even 
the nature of our mission in 2014, since our long-term relationship 
with and support for Afghanistan is the subject of current 
negotiations.
    d) It is too early to predict what our force presence or mission 
will look like in 2014, but it is likely that our posture--to include 
troop numbers, bases, roles, and areas of operation--will look very 
different than it does today.
    e) During the Lisbon Summit and subsequent international 
conferences, partner nations reaffirmed their commitment to Afghanistan 
through the end of 2014 and even beyond. Obviously, force levels will 
be determined by individual nations, but we are confident that 
decisions with our partners will be well-coordinated. Additionally, 
NATO and Afghanistan signed a Declaration on an Enduring Partnership 
during the November 2010 Lisbon Summit, and NATO is currently working 
with the Afghan government to determine the scope and nature of NATO's 
long-term relationship with Afghanistan.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PALAZZO
    Mr. Palazzo. I represent South Mississippi, a military-heavy 
district where all branches of service are represented, including Camp 
Shelby, one of our Nation's premier mobilization bases, and one of the 
largest Guard and Reserve training sites in the Nation. This weekend I 
had an opportunity to participate in a hero's homecoming with a great 
group of soldiers, the Mississippi National Guard's 287th Engineer 
Company (Sappers). These soldiers were conducting route clearance and 
IED/roadside bomb removal, allowing for their fellow soldiers' safe 
travel on the roads of Southeastern Afghanistan. With this in mind, we 
must be mindful that there is a dark cloud over America, our national 
debt. Still, I remain committed to making sure funding is provided in a 
manner that continues to train for, equip, and execute our mission 
successfully, so that our men and women in uniform can do their job and 
return home safe and sound.
    a) Many of these soldiers told me that the MRAPs and mine rollers 
that they are currently using are saving their lives every day. How do 
you perceive the performance of the MRAPs and mine rollers currently in 
service?
    b) Do you believe we need more MRAPs and mine rollers in 
Afghanistan?
    c) What do you feel is the current trend regarding IEDs and 
Roadside Bombs in Afghanistan? Are we seeing more or less as we 
continue to improve technology to identify and disarm threats?
    d) Is the equipment we are using currently, the best possible for 
the job?
    General Petraeus. a) The Mine Resistant Ambush-Protected vehicles 
(MRAPs) and mine rollers currently deployed in Afghanistan are 
performing extremely well and are saving lives and limbs on a daily 
basis. MRAPs offer far superior protection for our troops than the up-
armored High Mobility, Multi-Wheeled Vehicles (HMMWVs) that they 
replaced. And the ``V''-shaped hull and armor plating on these vehicles 
are specifically designed to provide enhanced protection against mines 
and IEDs. Based on current data gathered by Combined Joint Task Force 
Paladin, the executive agent for Counter-IED efforts in Afghanistan, 
U.S. Service personnel have a 96 percent survival rate when attacked by 
IEDs or small-arms fire while traveling in an MRAP. Mine rollers, 
specifically designed to detonate IEDs preemptively, provide additional 
protection to our servicemembers. Overall, these assets have proved 
invaluable in saving lives and minimizing damage to other critical 
lifesaving, protective equipment.
    b) Based on the current deployment projections for MRAPs, the rate 
of loss due to battle damage, and the current and projected production 
rate, we are confident that all current and future requirements will be 
met. We will, however, continually assess these requirements as 
conditions on the ground warrant. On this point, it should be noted 
that the incredible work to surge this equipment to theater would not 
have been possible without strong congressional support.
    c) Over the last year, the number of IED incidents theater-wide has 
increased, although not nearly to the same degree as other forms of 
attacks, most notably direct-fire incidents. There are obviously 
deviations based on seasonal factors, such as declines during winter or 
the annual poppy harvest, and, of course, we have significantly 
increased our total force numbers.
    While the total number of IED attacks is higher, the effectiveness 
of these attacks has declined since October 2010 (an effective IED is 
one that causes a casualty). In the event of an effective IED attack, 
the rate of those killed or seriously injured has also declined 
steadily since August 2009. Further, the rates of IEDs found and 
cleared--versus those that detonate--have remained at or above expected 
seasonal levels. This is possibly due to increased mounted and 
dismounted operations, targeted raids to disrupt IED networks, improved 
detection capabilities, neutralizing technologies such as mine rollers, 
more tips from local Afghans, and the possibility that the enemy is 
emplacing IEDs more hastily as a result of more patrols and more 
intelligence, surveillance, and reconnaissance platforms.
    On the second question, just as we are constantly adjusting our 
tactics, so too is the enemy. We anticipate that the enemy will 
continue to use IEDs and one of its main weapons of choice since IED 
emplacement minimizes direct confrontation with our forces. We will 
continue to adjust our tactics and pursue new technologies to minimize 
the risk IEDs pose to our troopers.
    d) Yes, the equipment we are using represents the best technology 
that we have developed. Over the past 16 months, we have deployed 
billions of dollars in new equipment to counter IEDs, including MRAPs 
and variants like the MRAP All Terrain Vehicle (more than 14,000 
vehicles total), sophisticated metal detectors, electronic counter-
measures (jamming devices), mine rollers, robots, myriad surveillance 
platforms, and other gear. Most of this equipment was specifically 
designed for the Afghanistan area of operations, based on lessons 
learned from Iraq and Afghanistan. We have also redoubled our efforts 
to take lessons learned from the field on tactics, techniques, and 
procedures and institutionalize them in short order. We will continue 
to assess the needs of our warfighters and to ensure that we meet 
constantly-changing battlefield requirements.

                                  <all>

</pre></body></html>
